<html>
<title> - [H.A.S.C. No. 113-77] THE STATE OF AL QAEDA, ITS AFFILIATES, AND ASSOCIATED GROUPS: VIEW FROM OUTSIDE EXPERTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     
 
                         [H.A.S.C. No. 113-77]

                       THE STATE OF AL QAEDA, ITS

                   AFFILIATES, AND ASSOCIATED GROUPS:

                       VIEW FROM OUTSIDE EXPERTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 4, 2014


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
86-967                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES


                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MO BROOKS, Alabama                   SCOTT H. PETERS, California
RICHARD B. NUGENT, Florida           WILLIAM L. ENYART, Illinois
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
PAUL COOK, California                MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2014

                                                                   Page

Hearing:

Tuesday, February 4, 2014, The State of Al Qaeda, Its Affiliates, 
  and Associated Groups: View from Outside Experts...............     1

Appendix:

Tuesday, February 4, 2014........................................    39
                              ----------                              

                       TUESDAY, FEBRUARY 4, 2014
THE STATE OF AL QAEDA, ITS AFFILIATES, AND ASSOCIATED GROUPS: VIEW FROM 
                            OUTSIDE EXPERTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2

                               WITNESSES

Braniff, William, Executive Director, National Consortium for the 
  Study of Terrorism and Responses to Terrorism, University of 
  Maryland.......................................................     5
Gartenstein-Ross, Daveed, Senior Fellow, Foundation for Defense 
  of Democracies, and Adjunct Assistant Professor, Security 
  Studies Program, Georgetown University.........................     7
Jones, Seth G., Associate Director, International Security and 
  Defense Policy Center, RAND Corporation........................     3
Swift, Christopher, Adjunct Professor of National Security 
  Studies, Georgetown University.................................     9

                                APPENDIX

Prepared Statements:

    Braniff, William.............................................    65
    Gartenstein-Ross, Daveed.....................................    85
    Jones, Seth G................................................    47
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    45
    Swift, Christopher...........................................   105

Documents Submitted for the Record:

    Map titled ``State of Al Qaeda and Associated Movements--AQAM 
      areas of operation and safe havens, March 2013''...........   115

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................   119
THE STATE OF AL QAEDA, ITS AFFILIATES, AND ASSOCIATED GROUPS: VIEW FROM 
                            OUTSIDE EXPERTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, February 4, 2014.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. The committee meets to receive 
testimony on the state of Al Qaeda from outside experts. Our 
witnesses include Dr. Seth Jones, Mr. William Braniff, Mr. 
Daveed Gartenstein-Ross, and Dr. Christopher Swift. Gentlemen, 
thank you all for joining us here today.
    The committee has conducted several classified briefings on 
this topic. However, today is an opportunity to build on that 
knowledge in an open forum with these thoughtful and highly 
respected experts. Al Qaeda declared war on the United States 
and then successfully attacked us multiple times in 1998 and 
2000, culminating with the horrific attack on 9/11. Since then 
Al Qaeda, its affiliates, and associated groups have maintained 
their global presence, increased their safe havens, and 
expanded their influence. They continue to plot attacks against 
our homeland and our allies and partners around the globe. In 
an op-ed just a few weeks ago Peter Bergen asserted that, and I 
quote, ``From Aleppo in western Syria to Fallujah in central 
Iraq, Al Qaeda now controls territory that stretches more than 
400 miles across the heart of the Middle East. Indeed, Al Qaeda 
appears to control more territory in the Arab world than it has 
done at any time in history.''
    Similarly, as several of your written statements conclude, 
Al Qaeda appears to be a growing threat. These trends are 
disturbing and lie in stark contrast to the President's wishful 
narrative that Al Qaeda is on a path to defeat. I applauded the 
President's decision to take out Osama bin Laden. However, this 
tactical success did not end what former CENTCOM [Central 
Command] Commander General John Abizaid called the long war 
against Al Qaeda. Nonetheless, President Obama has promised to 
revise and ultimately repeal the 2001 Authorization for Use of 
Military Force, which is the very authority that underpins our 
operations against these groups. What the President seems to 
ignore is that the enemy gets a vote. While the President seeks 
an end to war on terrorism and is not providing the leadership 
necessary for our efforts in Afghanistan, Al Qaeda seeks a 
continued war against the United States and the West. This is 
the reality, and this is what our policy and strategy must 
address. To do otherwise puts the United States and our 
interests across the globe at dire risk.
    We look forward to your thoughts on how this committee can 
best shape our Nation's policies, strategies, and capabilities 
to address the long war that Al Qaeda continues to fight. Mr. 
Smith is delayed today with his plane, as you know that we have 
some weather problems somewhere, and Ms. Sanchez is the ranking 
member right now. Ms. Sanchez.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman, for holding this 
hearing because I think it is an incredibly important topic, 
one that we are going to be returning to, I think, quite often 
in the next year or so.
    First of all, I would like to thank the gentlemen before us 
on the panel for appearing before us, and I think this whole 
issue that you brought up about the Authorization for the Use 
of Military Force [AUMF] and what we do with it, what it really 
covers, et cetera, is going to be a very important topic for 
our committee.
    You know, everybody believes that the military force that 
we agreed to right after the attacks of September 11th really 
have to do with the forces within Afghanistan and our work 
there, and the reality is that we are still seeing Al Qaeda out 
there after 12 years from those attacks.
    So although Al Qaeda no longer has the freedom to train 
thousands of people in Afghanistan and even though Osama bin 
Laden has been killed, and even though we believe that a lot of 
the leadership of Al Qaeda have been captured or killed, Al 
Qaeda has obviously morphed into other groups and has 
relationships with other cells and other groups in other 
places, so we can't lose the sight of that. I think we need to 
be vigilant in our efforts to ensure that that group which 
really means to hurt the United States and its citizens, we 
need to make sure that we are vigilant about how we eliminate 
that threat to our people.
    And so I am going to be very interested to see what we come 
up with as we move forward because, you know, I want to read a 
little bit about the text of the AUMF here. It authorized a war 
against those who, and I quote, ``planned, authorized, 
committed or aided the terrorist attacks on September 11, 2001, 
or harbored such organizations or persons,'' and that may not 
cover the future organizations that mean to threaten us. So I 
think it is an appropriate time for us to start thinking about 
what this means.
    I am not asking our panel today, obviously, to propose an 
alternative legislation. I think it is far too early for that, 
but I hope that they can help us to understand what is the 
threat out there now, what does it look like, what do we need 
to be concerned about, how do we determine whether certain 
persons or organizations, in fact, are in combat. How do we 
combat them? What do we look at? Is it their devotion to an 
ideology? Is it their belligerent actions or what other factors 
should we consider as we take a look at this?
    How many of these groups have global foci that incite 
direct attacks on the United States? I think we need to be 
concerned about all these things. And when should we be using 
the U.S. military? Should we be directly involved? Should we 
have a situation like we see in Somalia where we have different 
capacities working on there to sort of tamper things down? Do 
we look at what we are doing in Iraq, where we have the Iraqi 
Army and others, and we are giving just some help there? What 
is the appropriate way for us to use our military and our other 
resources to ensure that Al Qaeda doesn't spring up, doesn't 
have these camps, isn't training people, and isn't perpetrating 
attacks against the American people?
    So I think it is an important topic. I thank you for 
bringing it up again, Mr. Chairman, and I am going to submit 
our side's full statement for the record. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. You bring up a very interesting point. Just a 
couple of years ago, the DOD [Department of Defense] counsel 
came to me and said he needed to have it enlarged because he 
has to approve all of the special forces attacks, and he says 
he was having to be pretty creative because from the time we 
originally passed the authority, there had been a lot happen, a 
lot of evolvement. In fact, some of our main problem was Al 
Qaeda in the Arabian Peninsula, and they weren't even in 
existence at the time of 9/11.
    So this is an evolving issue, and I think whether we get 
tied up on whether we--whatever the name of the terrorist group 
is, most of them have the same, the same--I mean, just the name 
terror, that is what they, how they function, and we need to be 
ever vigilant worldwide, protecting our interests. I mean, when 
they attack an embassy, such as happened in Benghazi, that is 
American soil, whether it is within the continental borders of 
the United States or one of these embassies or consulates 
around the world, that is American territory. So we really look 
forward to your expertise and guidance today because this is 
something that we are definitely going to have to look at.
    Dr. Jones.

 STATEMENT OF SETH G. JONES, ASSOCIATE DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Dr. Jones. Thank you, Chairman McKeon, Ranking Member 
Sanchez, and members of the committee, thanks for inviting us 
to testify at this hearing on the state of Al Qaeda, its 
affiliates, and associated groups.
    I am going to divide my remarks into three components. I am 
going to first talk about the organization and at least the way 
I see the broader movement organized, then I am going to talk 
about key trends in the data, and then third is implications 
for the United States.
    I think there has been a tendency among some journalists 
and pundits to lump all Sunni Islamic groups under the title Al 
Qaeda, which I think has clouded a proper assessment of the 
movement, and this gets to issues that we will talk about 
later, including on AUMF. I am going to refer and focus my 
remarks on a slightly broader set of groups that I am going to 
call Salafi jihadists that fit several criteria. These are 
groups that emphasize the importance of returning to a pure 
Islam, and then they also believe that violent jihad is a 
religious duty, their goal here is to establish an extreme 
Islamic emirate.
    Today this broader movement, which does include Al Qaeda, 
is decentralized, in my view, among four tiers. First is the 
core in Pakistan, led by Zawahiri. I was out in that region a 
couple of months ago along the Afghanistan-Pakistan border 
looking at the status of those individuals. Second is about a 
half dozen formal affiliates that have sworn allegiance to the 
core, located in Syria, Somalia, Yemen, and North Africa. It 
looks like we have lost the most recent one, or lost one 
recently in Iraq.
    Third, a panoply of Salafi jihadist groups that have not 
sworn allegiance, formally they have not sworn ``bay'at,'' or 
loyalty, to senior Al Qaeda leaders in Pakistan, but they are 
committed to establishing an Islamic emirate, and several of 
them have plotted attacks against the U.S., against U.S. 
embassies, against U.S. diplomats, against U.S. targets 
overseas.
    And then finally the inspired individuals and networks 
including the Boston bombers that, while they had no direct 
connections, were involved in listening to Al Qaeda propaganda 
and using the propaganda to build the bombs, including from 
Inspire magazine.
    I think several trends are concerning as I look across 
these groups. First, according to data I have collected, there 
has been an increase in the number of Salafi jihadist groups 
globally, particularly in North Africa and the Levant. Examples 
include groups operating in Tunisia, Algeria, Mali, Libya, 
Egypt, including the Sinai, Lebanon, and Syria. There has also 
been an increase in the number of fighters within these groups, 
and then finally, an increase in the number of attacks 
perpetrated in particular by Al Qaeda and its affiliates.
    Second, as I noted earlier, this movement has become more 
decentralized, I think, which does raise questions about the 
AUMF, which we will come back to, and that while there are 
similarities among some of these groups, there are also 
substantial differences.
    Third, I think it is worth noting that only some of these 
groups are currently targeting the United States homeland and 
its interests overseas, like U.S. embassies and U.S. citizens. 
The most concerning, at least in my view, are Al Qaeda in the 
Arabian Peninsula and inspired individuals, like the 2013 
Boston Marathon bombers. I would highlight concerns about the 
growth in the number of foreign fighters, Americans, Europeans, 
and others in Syria, the growth in social media and the 
terrorist use of chat rooms, Facebook, Twitter to access, that 
are making it easier for Americans in the United States to 
access this information.
    But let me just point out that there are a range of groups 
that are not Al Qaeda and have never formally pledged 
allegiance that have posed a threat. Ansar al-Sharia in 
Tunisia, for instance, has plotted attacks against U.S. 
diplomats and infrastructure in Tunis. Operatives from Ansar 
al-Sharia Libya, the Muhammad Jamal Network and others were 
involved in the 2012 attack that killed U.S. Ambassador 
Christopher Stevens.
    There are threats from groups including out of the North 
Caucasus that threaten U.S. athletes and their family members 
and other travelers to the Sochi Olympics in Russia right now. 
Many of these groups are not formal affiliates of Al Qaeda, 
have never pledged allegiance, but they remain threats, and I 
think that is worth highlighting.
    Let me just conclude by saying that I think an effective 
U.S. strategy has got to include three brief components. One is 
focus on covert intelligence, law enforcement, special 
operations, diplomatic and other activity to target these 
groups, including their financial and logistical networks 
overseas. This should not be and I think is not just a military 
exercise but requires multiple organizations from within the 
U.S. Government outside of the Department of Defense and 
outside of the Intelligence Community.
    The second step I think is helping local governments 
establish basic law and order as a bulwark against these 
groups. I think there have been some helpful steps in cases 
like Mali where we don't see groups plotting attacks against 
the U.S. homeland. The French did step in, get involved with 
special operations forces to push back Harakat Ansar al Dine 
Tuareg groups operating in Mali. That is a helpful step I think 
from an ally, and in some cases, may be better to hand this off 
to allies, particularly where we don't see plotting against the 
U.S.
    My last comment is just to serve as a reminder that I would 
say much like the Cold War, this struggle that we are going to 
be talking about today is, in part, an ideological one. As the 
head of Al Qaeda, Ayman al-Zawahiri wrote recently, I quote, 
``The strength of this movement is derived from the message it 
spreads to the ummah and the downtrodden all around the 
globe.'' An effective campaign must, must include countering 
the ideology.
    We can talk about more specifics later, but let me just 
turn this back and to thank you, chairman and ranking member, 
and members of the committee for having this hearing. I look 
forward to your questions.
    [The prepared statement of Dr. Jones can be found in the 
Appendix on page 47.]
    The Chairman. Thank you. Mr. Braniff.

  STATEMENT OF WILLIAM BRANIFF, EXECUTIVE DIRECTOR, NATIONAL 
    CONSORTIUM FOR THE STUDY OF TERRORISM AND RESPONSES TO 
               TERRORISM, UNIVERSITY OF MARYLAND

    Mr. Braniff. Chairman McKeon, Ranking Member Sanchez, and 
esteemed members of the committee, I would like to thank you on 
behalf of the START [Study of Terrorism and Responses to 
Terrorism] Consortium for inviting us to speak with you today 
on the state of Al Qaeda. There is unfortunately much to say.
    In 2012, the most recent year for which START has provided 
a complete set of global terrorism data to the Department of 
State, more than 6,800 terrorist attacks killed more than 
11,000 people. Even if you compare these more conservative 
Department of State statistics against the more inclusive 
global terrorism database, statistics dating back to 1970, the 
previous record for number of attacks was over 5,000. This 
makes 2012 the most lethal or, excuse me, the most active year 
of terrorism on record.
    Strikingly, the six most lethal groups in 2012, the 
Taliban, Boko Haram, Al Qaeda in the Arabian Peninsula, Tehrik-
e-Taliban in Pakistan, Al Qaeda in Iraq, and al-Shabaab are 
generally considered fellow travelers of Al Qaeda, and yet Al 
Qaeda itself was not responsible for a single attack in 2012. 
What should we take from these seemingly contradictory 
developments? Did Al Qaeda succeed by inspiring widespread 
jihadism, or has it lost to a variety of more parochial, albeit 
popular actors?
    Using preliminary data from a different project examining 
terrorist group behavior, it appears that 12 of the 20 most 
lethal organizations, and 10 of the 20 most active 
organizations had alliance connections to Al Qaeda in 2012, 
ranging from collaboration to mere rhetorical support, 
suggesting that Al Qaeda remained a central hub in a network of 
highly lethal and active terrorist organizations. There are 
four primary reasons for this development.
    One, Al Qaeda exploited relationships created during the 
anti-Soviet jihad and inserted itself into other violent 
campaigns beginning in the 1990s. While Al Qaeda is rarely 
successful at reorienting the nature of the conflict in toto, 
it does frequently succeed in altering the targeting and 
tactical preferences of subsets of violent actors in these 
theaters.
    Two, similarly, veterans of the anti-Soviet jihad returned 
to locally and regionally oriented groups, infusing them with 
the globalized understanding of their respective conflicts.
    Three, many of these highly networked veterans encouraged 
their respective organizations to establish a physical presence 
in other jihadist fronts as well, capitalizing on the 
recruitment, fund-raising, and equipment pipelines pouring 
resources into these conflict zones.
    Four, and finally, Al Qaeda fostered a virtual landscape 
that quickly became a place where local, regional, and global 
forms of jihadism overlapped for geographically, ideologically, 
and strategically diverse participants.
    Taken as a whole, the increasingly intertwined histories of 
local, regional, and global actors has at least four salient 
consequences. First, the global jihadist cause often benefits 
from resources mobilized for other purposes. As long as there 
are local and regional jihadist fronts, global jihadist actors 
will have access to resources that they can direct against the 
far enemy.
    Second, the multiplicity of narratives espoused by local, 
regional, and global jihadist actors creates numerous 
mobilization pathways into any one conflict zone. Consider 
Najibullah Zazi who left the United States to join the Taliban 
and defend Afghanistan, but who was redirected by Al Qaeda to 
plot suicide attacks against the New York City subway system. 
Zazi was not primed to target American civilians when he 
entered into this militant ecosystem, but the geographic 
collocation of local and global jihadist organizations enabled 
that eventuality.
    Third, the harmonization of parochial and cosmic narratives 
by Al Qaeda's propaganda organ helps conflate actions on the 
ground, increasing the chances that western interests will be 
targeted in a foreign setting. Consider the recent threat from 
Vilayat Dagestan, the sovereignty-seeking organization that 
committed two suicide attacks in Volgograd, Russia, this 
December. If the Winter Olympics are held, the group threatened 
additional attacks targeting tourists in retaliation for ``the 
Muslim blood that is shed every day around the world, be it in 
Afghanistan, Somalia, Syria, all around the world.''
    Fourth, the propagation of the global jihadist ideas--this 
propagation of global jihadist ideas has helped to inspire a 
new cohort of individuals who are prepared to take action 
without ever having joined a formal organization. Al Qaeda's 
endorsement of lone actor jihadism following the Fort Hood 
attack bolstered this threat.
    While it is certainly a mistake to conflate every local and 
regional jihadist organization with Al Qaeda, the interplay of 
local, regional, and global jihadism over 35 years presents a 
reality that counterterrorism professionals continue to 
address. In contested regions far from Al Qaeda's geographic 
center of gravity, violence targeting both local Muslim 
populations and western targets persists. It is no longer 
always useful to identify where Al Qaeda ends and other 
organizations begin.
    It would be dangerous therefore to conclude that because 
the Al Qaeda organization is not generating violent attacks 
itself, that the attrition strategy fostered by the 
organization for over 20 years is also ineffectual. This has 
been the most active 2 years in the history of modern 
terrorism, and Al Qaeda remains as the historical, 
organizational, and ideological center of the most lethal 
terrorist threats of our time. Thank you.
    [The prepared statement of Mr. Braniff can be found in the 
Appendix on page 65.]

STATEMENT OF DAVEED GARTENSTEIN-ROSS, SENIOR FELLOW, FOUNDATION 
 FOR DEFENSE OF DEMOCRACIES, AND ADJUNCT ASSISTANT PROFESSOR, 
        SECURITY STUDIES PROGRAM, GEORGETOWN UNIVERSITY

    Mr. Gartenstein-Ross. Chairman McKeon, Ranking Member 
Sanchez, distinguished members of the committee, it is an honor 
to be here with you today to discuss the state of Al Qaeda and 
its affiliates.
    Despite early hopes that the revolutionary events of the 
Arab Spring might be the death knell of jihadism, Al Qaeda and 
other militant groups have adapted to the new environment and 
have made gains. The U.S. needs to adjust its approach 
accordingly. Right now, in fact, militant groups have a 
significant opportunity. Western observers hoped that the Arab 
uprisings would weaken Al Qaeda by showing that nonviolent 
change was possible in the region and by providing a democratic 
alternative to long-standing dictators, but the region's 
challenges are providing these groups with fertile new 
recruiting ground.
    Egypt's coup showed that democracy is reversible, perhaps 
particularly so if Islamist groups are being empowered. Al 
Qaeda leader Ayman al-Zawahiri had been saying this since the 
revolutions began, and since the coup, Zawahiri and other 
leading jihadist figures have claimed vindication. Also the 
brutal conflict in Syria where a once hopeful movement has 
given way to blood-soaked tragedy has been a virtual incubator 
for extremism. Unfortunately, these reverses of the Arab 
Spring's initial hopes came atop already existing efforts by 
jihadist groups to exploit changes in the region.
    One change has been prisoner releases. The Senate Select 
Committee on Intelligence report on the September 2012 Benghazi 
attack notes that it was carried out by a number of individuals 
connected to terrorist groups, including the Muhammad Jamal 
Network. Jamal is one of many jihadists to have been released 
from Egyptian prison, making him part of an Arab Spring trend 
in which prisons in affected countries have been emptied. In 
many cases, it is good that prisoners have gone free, as the 
old dictatorships were notorious for jailing and abusing their 
political prisoners, but jihadists were also part of these 
releases. Militancy in both Egypt and also Libya was 
strengthened by prisoner releases.
    This is also true of Ansar al-Sharia in Tunisia whose 
leader Abu Ayadh al-Tunisi had been in prison since 2003 for 
involvement in terrorism abroad but was released in the March 
2011 general amnesty. It is impossible to overstate the degree 
to which prisoner releases have strengthened regional 
militancy, and we can see the bloody results in such places as 
Egypt's Sinai region.
    A second change is new ``dawa'' opportunities for these 
groups, which can be understood as missionary activity, except 
rather than trying to convince non-Muslims to convert to Islam, 
jihadist groups often focus on converting other Muslims to 
their extreme practice of the faith. New dawa opportunities 
allowed jihadism to spread in places like Egypt and Tunisia 
where Ansar al-Sharia had a particularly sophisticated strategy 
that exploited social media to increase its presence and 
visibility.
    We should also be concerned about the resurgence of 
charities that support militancy. Prior to 9/11, Al Qaeda 
received significant funding from a network of Islamist 
charities, and these NGOs [nongovernmental organizations] seem 
to be reemerging. The most significant factor in the rebound 
has been the Syrian conflict. A recent Brookings Institution 
report notes the role of Persian Gulf donors and charities who 
have helped to shape the ideological, and at times, extremist 
agendas of rebel brigades. The report singles out Kuwaiti 
institutions because that country has fewer financial controls 
than other Gulf States.
    So what can the United States do? We need to understand 
that this is a longer term campaign, not a sprint to finish off 
a weaker foe, and we need to make our counterterrorism efforts 
both more strategic and also more sustainable. I offer five 
brief recommendations.
    First, we need to beware of second order consequences when 
the U.S. decides to use its military might. The chaos produced 
by the Libya campaign, including ungoverned territory in the 
south and a regional flow of arms resulted in more potent 
jihadist factions in the region. While the primary rationale 
for the intervention was humanitarian, as long as Al Qaeda and 
jihadism remain strategic priorities for the United States, we 
need to be cognizant of the impact that major U.S. commitments 
can have on this phenomena.
    The risk of second order consequences gives rise to another 
priority, better harnessing the talents of open-source 
analysts. Right now, open-source analysis suffers from a dearth 
of reliable information, such as access to data in the 
documents recovered by the raid that killed Osama bin Laden. 
The 17 Abbottabad documents that the U.S. Government released 
in 2012 represent less than 1 percent of the total cache. 
Declassification of those documents should be hastened.
    Third, we need to recognize the limitations of the U.S.'s 
targeted killing campaign. This campaign is seemingly premised 
around the idea that a leadership attrition-based strategy can 
defeat Al Qaeda, but if Al Qaeda is resilient in the face of 
this kind of attrition, as the evidence suggests, we need to 
think comprehensively about the impact of the strikes, 
including consequences when innocent people are killed. The 
U.S. shouldn't simply eschew targeted killings as a 
counterterrorism tool, but we should consider the idea that the 
tactic may be overused, particularly signature strikes.
    Fourth, I concur with Dr. Jones that partner nation 
assistance is important. President Obama correctly observed 
that not all Al Qaeda affiliates and not all jihadist groups 
pose an equal risk to the United States, thus the U.S. should 
not bear all the cost in this fight. Partner nation assistance 
can include building local police capacity and also 
intelligence capabilities.
    Fifth and finally, the elephant in the room is detention. 
Many pundits clearly hope that the U.S. doesn't need a 
detention policy, but we do. Detention of enemy combatants is a 
traditional tool of warfare because of concerns that a captured 
fighter if released will return to the fight, and the criminal 
justice system doesn't fully satisfy the rationales underlying 
detention. While detention is more complex in the case of 
nonstate actors than state-to-state conflict, as long as the 
threat is growing rather than receding, law-of-war detention 
remains relevant as a matter of policy. And related to this, we 
should set clearer policy about interrogation designed to clear 
actionable intelligence prior to Mirandizing jihadists who will 
be prosecuted in the criminal justice system. The U.S. has done 
this in several cases, and in some, like the case of Sulaiman 
Abu Ghaith, it is arguable that there is a need for a longer 
pre-Miranda interrogation.
    The bottom line is that Al Qaeda is not on the verge of 
collapse. Unfortunately, we need to think strategically about 
this as a longer term conflict. I look forward to your 
questions and exchanges.
    [The prepared statement of Mr. Gartenstein-Ross can be 
found in the Appendix on page 85.]
    The Chairman. Dr. Swift.

 STATEMENT OF CHRISTOPHER SWIFT, ADJUNCT PROFESSOR OF NATIONAL 
            SECURITY STUDIES, GEORGETOWN UNIVERSITY

    Dr. Swift. Good morning, Mr. Chairman, Ranking Member 
Sanchez, honorable members of the committee, this is my first 
time testifying before the United States Congress, and I am 
both honored and humbled to be here with my distinguished 
colleagues.
    I am going to draw on some of the insights I have developed 
over the last 10 years conducting field work in regions 
including Afghanistan, Chechnya, and Dagestan, the central 
Asian republics, and most recently, southern Yemen. My goal is 
to help use these insights to frame some of the threats we face 
and some of the decisions we must make in the coming year.
    Mr. Chairman, honorable members, as my colleagues have 
explained this morning, we currently face a constellation of 
complex, dynamic, and constantly evolving threats, threats that 
compel us to reexamine our assumptions, recalibrate our 
strategy, and ultimately revise the legal frameworks 
authorizing the use of military force.
    I would respectfully suggest that three questions must 
shape your inquiry. The first is how does Al Qaeda influence 
local insurgents; second, how do these insurgents contribute to 
Al Qaeda's global jihad; and third and most significantly, how 
can we distinguish one adversary from the next? Answering these 
questions is crucial to our shared security, yet rather than 
engaging these complex relationships in their own right, a 
majority of pundits and policymakers routinely cast disparate 
groups as part of a common global conspiracy. They confuse 
radical ideologies with local political priorities, and in 
doing so, they presume that Al Qaeda will inspire, dominate, 
and control indigenous insurgents.
    Mr. Chairman, honorable members, we perpetuate these 
presumptions at our peril. Despite lessons our forces have 
learned in the field over the space of the last decade, the 
United States Government still has no framework for 
understanding the relationship between transnational terror 
syndicates and indigenous insurgents, and for all our emphasis 
on terrorist links and networks, our leaders lack consistent, 
objective criteria for distinguishing Al Qaeda's franchises and 
their affiliate forces from superficially similar patterns of 
indigenous militancy.
    The result, ladies and gentlemen, is confusion. After a 
decade of protracted deployments and enhanced surveillance at 
home, we still don't know exactly who our adversaries are, how 
they interact, or how precisely to defeat them.
    Mr. Chairman, honorable members, these oversights represent 
the single greatest challenge before this committee today. They 
hamper our efforts to identify and confront the emerging 
challenges my colleagues have discussed this morning. They 
weaken the consistency and perceived legitimacy of our 
operations, and most significantly they undermine our ability 
to think and act strategically. We cannot align our means and 
ends until we define the challenges we face.
    Mr. Chairman, honorable members, in his May 2013 speech at 
the National Defense University, President Obama explained that 
the United States is still at war with Al Qaeda, the Taliban, 
and their associate forces. I share that view, and I know 
members of this committee do as well. But unfortunately, the 
term ``associated forces'' has no legal or strategic meaning, 
nor do the terms ``affiliate forces,'' ``co-belligerents'' or 
``Al Qaeda-linked groups,'' and when your Senate colleagues 
asked the Pentagon to define these terms and the specific 
threats they represent, they were met with silence.
    Some of that silence is understandable. Assistant Secretary 
of Defense Michael Sheehan correctly notes that terrorist 
threats are murky and shifting, and that it would be difficult 
for Congress to get directly involved in the designation of 
specific Al Qaeda affiliates. A list-based approach similar to 
that we use for economic sanctions would not account for sudden 
changes in the character or composition of local terrorist and 
insurgent groups. It would be clear, but it would also be 
underinclusive. Our current approach by comparison is 
overinclusive. By emphasizing tactics and rhetorics, we are 
collapsing distinctions between transnational terrorist 
syndicates and superficially similar patterns of indigenous 
violence. The more we emphasize the ideologies that bring these 
groups together, the less we appreciate the local and sometimes 
very parochial interests that drive them apart.
    The lesson here is simple, Mr. Chairman, members, if we 
want to prevail on the battlefield and win in the war of ideas, 
we must first categorize our enemies and prioritize the threats 
they face.
    Three criteria, in my opinion, should guide this process. 
First, we must distinguish between groups with global ambitions 
and those pursuing more parochial ends. Groups with strong ties 
to a particular community or territory are far less likely to 
defer to the whims of foreign fighters.
    Second, we must distinguish militant Islamists on the one 
hand from Salafi jihadists on the other. While these ideologies 
may seem similar to us in principle, they are ultimately 
irreconcilable in practice. For militant Islamists, jihad is a 
means to an end. For Salafi jihadists, jihad is an end unto 
itself.
    Third, we must draw operational distinctions between groups 
that emulate Al Qaeda, groups that collaborate with Al Qaeda, 
and groups that subordinate themselves to Al Qaeda's whims. 
These distinctions will help us qualify the operational links 
between local insurgencies and the global jihad. As I explain 
in my forthcoming book, some groups form ad hoc alliances with 
Al Qaeda without ever accepting its authority, while others 
will embrace Al Qaeda's message and its methods even when there 
are no meaningful connections between them.
    Mr. Chairman, honorable members, the criteria I am 
presenting today reveal a spectrum of escalating threats. At 
the low end, we find autonomous rebels that espouse local 
ideologies and pursue local objectives. Grounded in a discrete 
community with a clear constituency, they are more likely to 
resist infiltration by foreign fighters.
    At the high end, however, we find Al Qaeda's subordinate 
franchises, franchises that combine global ambitions with a 
globalized ideology that glorifies perpetual war. Each 
syndicate in this spectrum presents its own unique challenges. 
Some threaten our allies with limited risks to ourselves. 
Others destabilize vital regions without ever reaching American 
soil, and a growing number are reviving Al Qaeda's global jihad 
through local insurgencies. Confronting this diversity will 
require a more nuanced and discriminating strategy. This war 
has changed, ladies and gentlemen, but it is not yet over.
    Mr. Chairman, honorable members, two centuries ago the 
Prussian strategist Carl von Clausewitz warned that leaders 
must first establish the kind of war they are entering into, 
not mistaking it for, nor trying to turn it into something 
alien to its true nature. This is the challenge before us 
today. We must set priorities based on a clear understanding of 
our adversaries. We need objective criteria focused on 
interests, ideologies, and operations rather than subjective 
speculation that seeks to build Al Qaeda up or define the 
threat down. In short, we need to see the world as it is, not 
as we might hope it would be.
    Mr. Chairman, honorable members, I believe that every 
President needs the discretion to identify and interdict terror 
threats in the field, but I also know that Congress plays an 
essential role in defining the legal and strategic parameters 
for the use of force. With all the challenges and controversies 
that face our Armed Forces today, this framework desperately 
needs your attention. Thank you. I look forward to your 
questions.
    [The prepared statement of Dr. Swift can be found in the 
Appendix on page 105.]
    The Chairman. Thank you very much. Dr. Jones, Mr. 
Gartenstein-Ross, as expressed during my opening statement and 
as many of you on the panel noted, the threat from Al Qaeda, 
its affiliates, and its associated groups appears to be 
increasing or, at a minimum, at least, evolving. However, the 
President is contemplating revising the 2001 AUMF to 
potentially narrow its scope, and in his own words eventually 
repeal it.
    Given your understanding of the threat posed by Al Qaeda, 
the goals of Al Qaeda, and the evolution of Al Qaeda since the 
death of bin Laden, is a limitation or narrowing of tools to 
take the fight to Al Qaeda and its affiliates consistent with 
the realities on the ground currently?
    Dr. Jones. Mr. Chairman, thank you for the question. It is 
a very, very important question. In my view, I would strongly 
suggest thinking about criteria. I would be very concerned 
about limiting the scope of the AUMF for the general purposes 
of limiting its scope. I have got probably three things, three 
quick things I wanted to say about it. One is as virtually 
everybody here has noted, the movement that we are talking 
about has decentralized. The AUMF is tied very specifically to 
the September 11th attacks. That was a decade and a half ago, 
and the reality is that we have multiple groups on multiple 
continents plotting attacks against the United States homeland, 
but in particular, against U.S. interests including embassies 
overseas, diplomats, and citizens. The current AUMF, as I read 
it, has to tie an individual organization to Al Qaeda or at 
least to groups that were involved in plotting the September 
11th attacks. We are living in a different world today. We have 
groups in North Africa plotting attacks against U.S. embassies 
that are not Al Qaeda. We have the group in Iraq over the last 
several days formally break away from Al Qaeda. Are they not 
included now in the AUMF because they have disassociated 
themselves? I would argue that if we are going to revisit the 
AUMF, we have got to incorporate a way of defining, I would say 
it differently than Dr. Swift did. I would focus on groups that 
are threatening, plotting attacks against the United States 
homeland or its interests overseas. I do think there needs to 
be more transparency, I think it is worth considering sunset 
clauses to revisit this issue, but I do think it is also worth 
recognizing that we are living in a very, very different world 
from September 11th.
    The Chairman. Thank you.
    Mr. Gartenstein-Ross. For the reasons given by Dr. Jones, I 
think that an alteration of the AUMF is inevitable. I think it 
is going to happen at some point. A sound legal footing is very 
much necessary for any sort of military action the U.S. 
undertakes, including those related to the threat of terrorism 
and jihadism, and as my colleagues have articulated, right now 
AUMF is premised on the nexus to 9/11, which in many cases has 
been receding, and I think that Dr. Jones' example of ISIS 
[Islamic State of Iraq and Syria] being booted out of Al Qaeda 
is a very good example of where that actually raises very 
important legal questions and shows some of the limitations of 
the AUMF framework.
    That being said, the question was about limitations on the 
AUMF, making it more narrow, and given the multiplicity of 
threats that we face and the morphing of threats, if the 
direction was only towards narrowing the AUMF, there are 
certainly dangers inherent to that.
    I want to find out one final thing as well, which is an 
issue if and when the AUMF does become altered, which is that 
right now our detention policy is premised upon the AUMF, so 
one question that is going to emerge is the detainees that the 
Obama administration says it considers too dangerous to be 
released even though they aren't going to be tried, the 
question that thus arises is if the AUMF is altered, what then 
happens to the detainees? There certainly will be legal 
challenges after any alteration comes up, and I think that that 
is something that anybody involved in tailoring a new AUMF has 
to have in mind during that process.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. President Obama has 
stated his intent to revise and maybe repeal the 2001 
Authorization for Use of Military Force. I would like to ask 
Dr. Swift what specific considerations should be taken into 
account before any revision or repeal? What should we think 
about with respect to this document?
    Dr. Swift. Thank you, Ranking Member Sanchez. Appreciate 
the question. Putting on my lawyer hat for a moment here, I 
think it is very important to emphasize that the goal here is 
not to narrow the scope of the AUMF or to expand the scope of 
the AUMF, but to align our ways, means, and laws in such a way 
that we can achieve the ends that we are after, and what I am 
proposing this morning and what I cover more extensively in my 
forthcoming book is a tiered set of criteria that one would use 
to determine whether a group represents a clear and present 
danger to the United States based on their objective profile, 
whether they represent a regionalized threat that we should 
help allies address, or whether they address a fundamentally 
local threat that might be vulnerable to future infiltration 
and colonization.
    And the three key criteria to look at here, Representative, 
are ideology, again distinguishing militant Islamists on the 
one hand from Salafi jihadists on the other. The second is 
their interests; are their interests locally focused or 
parochially focused or are they globally focused? Do they have 
transnational ambitions? Or do they want to run the particular 
part of the world that they are from?
    And then third, operations, this very big difference 
between emulation on the one hand, mimicking Al Qaeda's message 
and methods, which is something we see, for example, in the 
North Caucasus, a place where I have done a fair amount of 
research, whether they collaborate with Al Qaeda, whether they 
are entering into an alliance relationship that is sustained 
over time, or whether it is simply an ad hoc relationship based 
on the fact that they find themselves fighting against the same 
adversary today but maybe not tomorrow. And then distinguishing 
those two categories of operational interface from the full-on 
subordination of groups, the full-on indoctrinization and 
melding of a local subsidiary with a global Al Qaeda parent, 
and that occurs beyond just the ideological realm, and by 
focusing on ideology and on tactics and on rhetorics and by 
focusing on links-based analysis rather than organizational-
based analysis, by looking at these things from the top down 
rather than from the field up, where I have been doing my 
research the last 10 years, we have gotten parts of it right, 
but we have got other parts of it wrong.
    And part of what we have gotten wrong is the ability to 
draw distinctions and set priorities based on our interests, 
not based on the threatening things that groups may say about 
themselves.
    Ms. Sanchez. Okay. I would like to ask all the panelists 
just a quick yes or no. So let's take a look at the most, one 
of the most recent attacks we saw was, I believe, in a mall in 
Kenya, as I recall. I just want to do some hypotheticals 
because I want to understand whether you think the current AUMF 
that we have, you know, falls to criteria. So let's say that 
the people who attacked, who--you know, we know what happened, 
gunmen went in there, they shot people, killed people, et 
cetera. If they had, if we could find that they were allied to 
Al Qaeda, would the current AUMF cover those people if we had 
American citizens who were killed?
    Dr. Jones. Yes, al-Shabaab, as an Al Qaeda affiliate, has 
sworn allegiance, so the answer in my view is yes.
    Ms. Sanchez. Okay. What if it had been a group that we 
could find no tie to Al Qaeda, would our ability to go after 
these people from our end rather than the Kenyans, for example, 
fall under the current legal construct that we have?
    Dr. Jones. Ranking Member Sanchez, I am not a lawyer, so I 
don't know the answer. It is a fuzzy area.
    Ms. Sanchez. That is what I am trying to figure out. I am 
trying to indicate whether, what we need to think about as we 
look forward to some of these attacks that may happen.
    Dr. Swift. Ranking Member Sanchez, I am an international 
lawyer----
    Ms. Sanchez. Okay.
    Dr. Swift [continuing]. And I practice in this area. 
Technically no, but the President would still have broad 
authority under his Article 2.2 powers to protect both U.S. 
citizens overseas, to intervene to assist allies. If the 
Kenyans had asked for our assistance, there would be no need 
for the AUMF.
    Ms. Sanchez. What if the Kenyans didn't ask, or what if it 
was a country, Somalia or some place like that that really 
didn't want to deal with us?
    Dr. Swift. Then, Representative, the President would be 
falling back on his Article 2.2 authorities, which underscores 
why it is so important to take an objective criteria-based 
approach to this sort of analysis because the AUMF as it is 
currently construed is underinclusive. The problem is if we 
define the AUMF based on ideology, or based solely on links 
between individuals that aren't substantiated, if we don't look 
at the character and quality of those relationships, the AUMF 
could become dangerously overinclusive in a way that is not 
tailored to our interests both at home and around the world.
    Ms. Sanchez. Mr. Chairman, let me ask one final question. 
Because, you know, we have talked a lot about how we are going 
to pivot towards Asia, we are looking at maybe a larger 
military presence or working with countries out in the Asian 
area, and I remember from a trip that I took maybe about 4 
years ago going to see extreme jihadist type of extremist 
groups that operate in the Philippines, that operate in 
Indonesia, that operate into the southern portion of Thailand, 
for example. If these groups were not outwardly connected to Al 
Qaeda, do we need a different construct to cover if they would 
attack a mall where our American citizens would be there, or 
where they would attack one of our embassies, for example?
    Dr. Swift. Representative, I would respectfully argue that 
we do need a different construct, and that construct needs to 
take into account the ideology of the organization, the 
interests of the organization, and the operations of the 
organization. One of the difficulties of linking everything 
back to Al Qaeda and the Taliban circa September of 2001, as 
all of my colleagues have mentioned here this morning, is it 
really narrows our ability to respond to the threat as it 
evolves, but at the same time, we have got to be sure that when 
we are expanding the scope of the AUMF, we are expanding how 
and when and why we use force, that we don't allow war to serve 
itself, that we allow war to serve our strategic interests, our 
national interests, and that we are thinking very critically 
about who our adversary is. If we don't define our adversary 
first, our adversary will define us in the war we are fighting.
    Ms. Sanchez. Thank you. And I yield back, Chairman.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman, and I appreciate 
you-all all being here today. I also think it is important to 
point out and remind everybody that in this committee, in both 
the NDAA [National Defense Authorization Act] for fiscal year 
2012 and 2013 updated the AUMF. It may not have been perfect 
language, but we took language used by both the Obama and Bush 
administrations, it passed the House with bipartisan support in 
making that adjustment, and we couldn't convince our Senate 
colleagues to go around. I think this committee was concerned 
for several years about having the proper legal framework for 
our men and women who we send out all around the world to do 
the things we ask them to do, and I think it is too bad that 
not everybody was as up to speed maybe as this committee.
    I want to back up for just a second and focus on the threat 
and ask you-all's comments starting with you, Dr. Jones. In his 
interview with The New Yorker magazine, the President was 
asked, Is Al Qaeda growing in capacity? And this was his 
answer: ``The analogy we use around here sometimes, and I think 
is accurate is if a JV [junior varsity] team puts on a Lakers 
uniform, that doesn't make them Kobe Bryant.'' And it says 
``Obama said.''
    I am not sure I understand that, but the implication to me 
is that we have already defeated the Lakers, and now we just 
have to deal with the JV in Yemen and in North Africa, and al-
Shabaab, and all these people in Iraq and Syria, they are not 
major league players. Now, is that the way that you-all see the 
current threat we face today from these groups? Dr. Jones.
    Dr. Jones. No, I view the threat somewhat differently. I 
would point recently to the administration's decision to close 
nearly two dozen embassies as useful examples of the threat to 
U.S. structures and diplomats overseas. You don't close 
embassies if you don't have a threat. You do close them when 
you have active plots to target embassies, diplomats, and 
citizens overseas.
    Within the last year we have also had an active plot 
generated by Al Qaeda in the Arabian Peninsula targeting, among 
other things, U.S. aircraft in the United States. They have 
been looking at various options for concealing a bomb inside of 
a number of different luggage compartments and others to take 
down a U.S. airline. I consider, Mr. Thornberry, the threat 
serious. I do not consider this JV.
    Now, there are some individuals involved in plots that have 
been JV incompetent individuals, but more broadly speaking, I 
do think the threat is serious, and I think the 
administration's actions overseas demonstrate that the threat 
is serious.
    Mr. Thornberry. Thank you. I would just like to go down the 
line right quick in the remaining time. Mr. Braniff.
    Mr. Braniff. Thank you for the question. I think part of 
the issue here is that terrorism is a bit of a difficult thing 
to analyze because of the numbers associated with it. Al 
Qaeda's 9/11 attack has an oversized impact on our assessment 
of the organization; understandably so, it is the most lethal 
attack in the history of terrorism, but Al Qaeda is responsible 
for approximately 80 attacks over the last 25 years. It is not 
a highly prolific organization in terms of number of attacks. 
That is around three per year.
    When you look at these other organizations that we have 
talked about, the six most lethal in 2012 that I mentioned, 
they are killing thousands of people per year, year after year, 
and so when you add those numbers together, what you see is 
these are highly lethal organizations that are highly prolific, 
they are conducting vast numbers of attack that are undermining 
the local government, our ability to help the local government, 
our ability to act within that space. If you just think about 
the, what is going on in Syria right now, for example, our 
ability to act decisively is undermined by the presence of 
multiple, even fighting factions within this broader Salafi 
jihadi community.
    Mr. Thornberry. Thank you. So you are worried about the 
Spurs and the Timberwolves and other people, not the JV for the 
Lakers? Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. I think that there is two 
implications to the President's statement, one of which I agree 
with, one of which I disagree with. The first is that not all 
threats are equal, I think that is correct. The second 
implication, though, when he says they are JV players putting 
on Lakers jerseys is that these new groups that are putting on 
the style of Al Qaeda, they are not really Al Qaeda, these 
affiliates aren't Al Qaeda, and this gets to a fundamental 
question in terrorism studies right now, which is are there 
unacknowledged affiliates?
    I want to turn to a quick example, which has been mentioned 
a couple of times, Ansar al-Sharia in Tunisia. If you go back a 
year, 2 years ago, this was considered to be a very local or 
regionally focused group with limited connections to Al Qaeda. 
More recently, you have had the Tunisian government after 
banning it put forward specific information. Not only was their 
leader someone who formed the Tunisian combatant group which 
committed the assassination of the Northern Alliance commander 
Massoud just 2 days prior to the 9/11 attacks, but also the 
Tunisian government has put forward information saying that 
Tunisi actually took an oath of bay'at, or an oath of 
allegiance to the head of Al Qaeda in the Islamic Maghreb, Abu 
Musab Abd al-Wadud.
    They also said that they are receiving funding directly 
from Al Qaeda, which if you look at the quality of these links 
would actually make them much more of an unacknowledged 
affiliate. I think we need to be cognizant that organizational 
ties may be far deeper than sometimes the surface level 
discussion the public sphere lets on.
    The Chairman. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all so 
much for being here. You have addressed certainly the question 
that Al Qaeda's repudiating of ISIS raises in some ways in 
terms of the complexity I think of the issues that we are 
looking at, but I wondered whether we do tend to look at all 
groups across the spectrum through the eyes of Al Qaeda and 
therefore miss perhaps what the intent of other groups might be 
at this time, and could you address whether that threat is 
coming to the United States and the homeland or if that, their 
activities are really more focused in other ways, and if that 
were true of ISIS, what about other groups? How do we best 
understand and really be able to bring together our best 
analytical advice when the organizations are perhaps growing in 
areas that we are not necessarily focusing on? How do we 
prevent that?
    Mr. Gartenstein-Ross. I think Dr. Swift's argument that we 
look at their interests, we look at their ideology, and we look 
at what they are targeting at the moment is a good framework 
for understanding this. So, for example, to return to my 
example of Ansar al-Sharia in Tunisia, I think in my view the 
best evidence suggests that they have a very strong 
relationship to the Al Qaeda network, but that being said, that 
doesn't mean they are targeting the United States, certainly 
not the continental U.S. They did help to organize the 
demonstration in Tunisia, in Tunis that caused the ransacking 
of the U.S. Embassy there and almost killed U.S. diplomats on 
September 14th of 2012. They are not of no interest, but it is 
a group where to have U.S. drones flying over Tunisia or to 
have U.S. Special Operations forces conducting raids would be 
very much out of step, in my view, with our interests given 
that Tunisia right now is cracking down, they are capable of 
doing so, and having the U.S. in there could inflame the 
situation.
    So I think that regardless of what their ideology or 
organizational ties are, we also have to look at how they are 
operating at that given moment. I think we should take those 
groups seriously but understand that we have a very large tool 
kit, and our tendency early in the war on terror was to take 
the burden all ourselves and to have the U.S. really bear the 
brunt of the costs. It is important to diffuse costs, 
especially given the state of our economy, and I think we are 
moving right now in that direction.
    Mrs. Davis. Dr. Jones, did you have something?
    Dr. Jones. Yes. I think it is an excellent question, and I 
think we, the government in general does not have a great 
answer at this point to it. I think, frankly, it is, in part, 
an intelligence answer. I think what the Intelligence Community 
needs probably to do better is to identify those groups that 
are plotting attacks today and tomorrow against the U.S. 
homeland and U.S. interests overseas.
    I think this is the third, I would interpret this is the 
third of Dr. Swift's criteria. I think the other two, the 
ideology, we can fight a lot, and some of those terminology in 
my view gets fuzzy, but we, the question is do we have 
intelligence that groups are plotting attacks against the U.S. 
homeland? There are a number that fit into this category. 
Yemen, Ansar al-Sharia in Tunisia has plotted attacks against 
Tunis, Muhammad Jamal has as well.
    There is a second category which sort of fits into the 
groups of concern but don't, aren't plotting. When we have 
Americans fighting in Syria and Americans fighting in Somalia, 
we may not see active plots, but we need to closely monitor 
those groups because they can switch quickly, and when you have 
Americans going there. Then we have a third criteria where we 
have no evidence at all.
    So I would argue that this should be more of an 
intelligence-driven process on attacks that threaten the U.S., 
both at home and overseas than it is today.
    Ms. Davis. Dr. Swift.
    Dr. Swift. Representative Davis, if I might offer you some 
intelligence from southern Yemen, I want to use Yemen as an 
example of some of the complexity we face in this area and also 
to answer part of the question Representative Thornberry asked. 
We have no answer, not just not a good answer, because we have 
no objective criteria, we have no analytical framework that is 
consistent across theaters and threats, and because we really 
don't have any boots on the ground in any of the places where 
these threats are emerging.
    I spent several weeks in southern Yemen interviewing tribal 
leaders who are fighting Al Qaeda door to door in their own 
villages, and I can tell you that if you ask them what is 
happening with Al Qaeda in the Arabian Peninsula that they will 
give you an image of an organization that is taking the 
ideological dictates of global jihad and merging them with the 
practical realities of local insurgency.
    And I would respectfully suggest in answer to Mr. 
Thornberry's question that that is not the JV team, that is 
actually a much more threatening team than Al Qaeda core ever 
was. Why? Because there is a geographic shift back to the Arab-
speaking world rather than the cultural and linguistic and 
religious periphery of the Islamic world. Why? Because people 
are grounded in their own tribal and family structures. It is 
localized and globalized at the same time. Why? Because we have 
a generational shift to people in their late 30s and early 40s, 
people about the same age as the people testifying before you 
this morning, who have seen all of the mistakes that their 
leaders made ahead of them, and most importantly, because we 
have a shift to a generation that didn't fight against the 
Soviet Union in Afghanistan, a generation that fought against 
the United States in Afghanistan.
    So if you want to know what is going on, you have got to 
have a framework, you have got to have criteria, we have got to 
be on the ground.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you very much, Chairman McKeon. Thank you 
for your leadership on this issue and thank all of you for 
being here today. I am really grateful for your presentations 
because I am very concerned that Chairman McKeon is really 
correct, that the American people need to remember that Al 
Qaeda declared war on the American people in 1996. They 
declared war, again, with the fatwa by Al Qaeda in 1998 on the 
American government, and then even specifically, we should take 
it personally, American taxpayers, and so we equally should not 
forget, we should remember the attacks of 9/11 and the global 
war on terrorism, and you being here today really should be 
really positive for the American people to understand the 
threat that is facing us.
    Sadly in June, the President, as was indicated by Chairman 
McKeon, was in a situation of wishful thinking that Al Qaeda 
was being diminished, and that it is really not a problem, as 
Vice Chairman Thornberry pointed out, too. That is just wrong, 
and we had specific examples. The mass murders at Fort Hood 
were dismissed as workplace violence, the murder at the 
recruiting station in Little Rock was called a drive-by 
shooting, the mass murders in Benghazi were identified as a 
video protest. None of that was true. And so the American 
people need to know, and I appreciate you being here.
    In fact, I also want to point out that we have a growing 
threat. This was first brought before the Foreign Affairs 
Committee last summer. Dr. Fred Kagan of the American 
Enterprise Institute had this chart, the American people need 
to know that we have a growing terrorist threat across North 
Africa, the Middle East, central Asia, and I appreciate 
Congresswoman Sanchez pointing out as far as Indonesia itself, 
we have a situation where we should address the world as it is, 
Dr. Swift, thank you.
    [The chart referred to can be found in the Appendix on page 
115.]
    Mr. Wilson. I believe that the demonstrators in Tehran in 
Iran, the state sponsor of terrorism, mean what they say. They 
carry signs in English, death to America, death to Israel, and 
we should take it seriously, and that is why I would like to 
know from each of you what would be your message to the 
American people on the threat, the threats of terrorism to 
American families and what do you believe is the proper 
response of the U.S. Government? And beginning with Dr. Jones.
    Dr. Jones. Well, I would point out much like the Cold War, 
which was a decades-long struggle, the war that we are dealing 
with today is a decades-long struggle. It is not just a 
military one, it should not be conceived only in military 
terms, but is one that is just as much ideological as it is 
military. That is the message that I would take back to the 
American population and to remind them that this is not going 
to end tomorrow, it is not going to end next week, that we have 
to prepare for a very, very long struggle, and preparing people 
for a long struggle I think precludes the response that we have 
seen from some policymakers that we are on the verge of defeat.
    Mr. Braniff. Representative Wilson, thank you for the 
question. I would have the same question for American families 
as I would for the government, that is to keep in mind Al 
Qaeda's strategy. Al Qaeda is waging an attrition strategy. 
They hope to attrit our political, economic, and military will. 
Political will is where that intersects with the American 
family. We need to be resilient as a country, but we need to 
understand that in the case of Al Qaeda and its relative 
decline compared to the Al Qaeda affiliates, just because it is 
not Al Qaeda core pulling the trigger doesn't mean it still 
can't attrite the United States ability to engage with the 
Muslim world.
    And so while we could take comfort in the fact that Al 
Qaeda core is not conducting attacks to the extent that they 
used to, we still need to mind that their attrition strategy 
can still be alive and well thanks to the associated movement 
that is still conducting attacks.
    Mr. Gartenstein-Ross. I think both of my colleagues have 
put forward eloquent messages to the American people, this is, 
in fact, a longer struggle. When it comes to terrorism, one 
thing I always tell the public is that we shouldn't be in fear. 
One thing terrorism tries to do is to terrorize us. We should 
act not out of fear but out of interest because this remains a 
problem to American interests, and we should address it 
accordingly.
    Dr. Swift. Representative Wilson, I have a very short 
answer to your question. When we don't draw distinctions 
between our adversaries, we fight Al Qaeda's war on Al Qaeda's 
terms.
    Mr. Wilson. Well, thank each of you, and indeed as a co-
warrior, I remember being told that we could not win against 
communism, that it was the wave of the future, and so we did, 
and thanks to the American military we have a greater spread of 
democracy today than in the history of the world. Thank you 
very much.
    The Chairman. Thank you. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Gentlemen, thank you 
all for coming today. We have, this country has increasingly 
relied upon--or I won't say relied upon but used universal data 
collection in an effort to hamper the operations of these 
networks, these Salafi jihadist groups so as to prevent their 
attacking the United States or any of its foreign interests. 
What--do you have an opinion as to the impact of privatizing 
data collection on America's ability to protect its citizens 
internally and its interests overseas? And, if so, what is that 
opinion? And start with Dr. Jones and work your way down.
    Dr. Jones. I do think there is an interest in collecting 
some degree of limited data. I think it was helpful in several 
plots, thwarting several plots including the Zazi plot which 
the investigation began with an intercept from Zazi back to his 
Al Qaeda handler in Pakistan. The question, in part, as I see 
it, gets to who holds the metadata that is collected. I think 
there is a strong argument for having the private sector hold 
the metadata and have the U.S. Government have to access it. 
There may be other options there. I don't know what that 
actually looks like. And there are probably three or four 
different options, but I think bringing the private sector in 
if they are willing to do it is certainly an option worth 
strongly considering.
    Mr. Braniff. Sir, thank you for the question. I don't have 
a strong opinion in the matter. This is not my background or 
area of expertise. I would argue just simply that given Dr. 
Swift's I think rightful contention that it is important to 
really understand at a very granular level which of the 
subsects of organizations are interested in targeting the 
United States and given the assertion of many of us that this 
is a really highly dynamic threat that has evolved quite a bit, 
and it is very fluid, we have to stay on top of it really in a 
real-time kind of a sense, the only way to do that is through 
data collection efforts, or at least that needs to be part of 
the intelligence picture. The mechanics of how that takes place 
I don't have a strong opinion, but I think there is a necessary 
function there given the requirement for really excellent 
intelligence to be effective in this front. Thank you.
    Mr. Gartenstein-Ross. Sir, that was an excellent question. 
I think that both ensuring the security of the Nation and also 
safeguarding citizens' privacy rights are incredibly important, 
and part of the story of U.S. data collection is one of 
evolution of technology, evolution of ability to surveil, and 
evolution of threats in which one hand wasn't aware of what the 
other was doing. In other words, our ability to collect maximum 
amounts of data increased at a time when we had a need because 
of threats to do so, and I think that there isn't a very strong 
framework in place right now to balance these considerations.
    With respect to privatization, I think it is very worthy of 
consideration, but I am not convinced it actually better 
protects privacy and in many ways it may actually make privacy 
problems worse, because I am not convinced that the private 
sector will be a better guarantor than the government of making 
sure that data isn't breached. At least in the government, 
people who can access the data have to be cleared in advance. 
You don't have the same need to clear people and the same 
checks and balances that are occurring to make sure that 
corrupt people aren't in there within the private sector, so I 
have concerns that we may be actually putting data in the hands 
of entities in which it is less secure rather than more secure.
    Dr. Swift. Representative Johnson, you raised some pretty 
important questions, both with respect to section 721 of the 
Foreign Intelligence Surveillance Act and section 1275 I 
believe, of the USA PATRIOT [Uniting and Strengthening America 
by Providing Appropriate Tools Required to Intercept and 
Obstruct Terrorism] Act.
    Mr. Johnson. 215.
    Dr. Swift. I would echo some of the statements made by my 
colleagues here. I actually don't see nearly as much of a 
concern withholding the stuff inside the government. We have 3-
, 4-, 5-, 600 years of a system of people going to a magistrate 
with a warrant and getting permission to engage in a search, 
and I, as a lawyer, have a lot of faith in that system. I think 
temporary, recent breakdowns in that system are worthy of 
oversight, but I don't think it is worthy of an overhaul of the 
entire system.
    I would say that my bigger concern relates to our 
overemphasis and overreliance on signals intelligence. If you 
look at what actually broke the case in terms of the Tsarnaev 
attacks in Boston after the Boston Marathon bombing last year, 
it was good old-fashioned police work on the ground. If you 
look at where our forces get their leads in the field, it is 
good old-fashioned intelligence gathering on the ground. There 
is only so much of this that we can do by remote control, and 
there is a lot of this that needs to be done by training the 
most valuable asset that we have, and that is human beings.
    Mr. Johnson. Thank you.
    Mr. Thornberry [presiding]. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. Mr. Braniff, I 
will direct this to you, sir. Thank you all for being here, and 
certainly I am glad you are on our side. Mr. Braniff, when 
describing Al Qaeda, the President has said many times and in 
many ways that we have Al Qaeda on the run, and when 
campaigning for his reelection in 2012, the President claimed 
that Al Qaeda was ``decimated,'' but considering the testimony 
here today and, of course, some of the many other experts in 
the field, it appears that ``on the run'' may mean dispersed 
recruiting and evolving on many fronts. So I have to ask you a 
difficult question. Do you think what the administration is 
saying regarding Al Qaeda's demonstrative diminishment and 
being on the run is truthful?
    Mr. Braniff. Representative Franks, thank you for the 
question. The last Al Qaeda attack on, in our global terrorism 
database occurred in 2011, and so clearly it is an organization 
that's operational capacity has been decimated, it has been 
undermined by a lot of pressure, so I think Al Qaeda core, the 
organization, as a trigger puller, as a bomb thrower, has been 
undermined, but that doesn't mean that the strategy waged by Al 
Qaeda, an attrition strategy is not alive and well, and the 
problem with, the insidious thing about an attrition strategy 
is that it doesn't have to be well run from the top as long as 
there are enough people on the ground creating fires that 
someone else has to go put out, and so the threat posed by Al 
Qaeda core is not diminished. The actual operational level of 
activity of Al Qaeda core has been diminished in my opinion.
    Mr. Franks. Well, we know that sometimes we have succeeded 
in attacking terrorism on a tactical level with almost 
unprecedented success, but in terms of dealing with them on a 
strategic success with the ideological concerns, I am just 
wondering if, in the perhaps unlikely event that Al Qaeda would 
gain access to some type of weapon of mass destruction, is that 
still a major concern that all of us should have given that 
that was a primary discussion when this sort of first became 
kind of in our collective awareness? Yes, sir, Mr. Braniff.
    Mr. Braniff. Thank you again for the question. So there is 
a research project run by Karl Rethemeyer and Victor Asal 
called the Big Allied and Dangerous project that looks at what 
makes terrorist organizations more likely to pursue weapons of 
mass destruction, or what makes organizations more likely to be 
highly lethal, and in both cases the answer is not ideology 
alone, it is instead highly central organizations, highly 
networked organizations, and Al Qaeda is the most highly 
networked organization around, and so is it more likely than 
others to try to pursue weapons of mass destruction? Based on 
that empirical study, the answer is yes. I think that it is 
part of the reason why we are so concerned about Syria. It 
obviously has access to chemical weapons. It still has to be a 
grave concern because we know that there are numbers of 
organizations who have voiced their desire to gain and use 
those weapons. It isn't the central sort of animating thing 
that keeps me up at night, but I think it is certainly of high 
concern.
    Mr. Franks. Well, thank you, sir.
    Mr. Gartenstein-Ross, I would ask you, to what extent has 
Al Qaeda in Iraq or AQI, which now calls itself the Islamic 
State of Iraq in the Levant among other names, to what extent 
have they grown in capabilities and areas of control in Iraq or 
Syria and neighboring countries over the last couple of years, 
and what factors have contributed to this growth such as the 
war in Syria and the sectarian political disagreements and 
conflict in Iraq itself?
    Mr. Gartenstein-Ross. Representative Franks, as was noted 
earlier, ISIS or ISIL [Islamic State of Iraq and the Levant] 
was just expelled from Al Qaeda recently. This is a very new 
development, but with respect to their capabilities and also 
what they stand for, that hasn't really altered. One of the 
most significant developments over the past 2 months was 
January 1st of this year when ISIS undertook a surprise attack, 
capturing large parts of both Fallujah and Ramadi. It still 
controls a large portion of Fallujah to this day. What that 
indicates is both a capability that is massively expanded. Last 
year, almost 8,000 Iraqis died in violence. It was the most 
violent year in Iraq since 2007 at the heart of the civil war 
within that country. They also continue to control territory of 
northern Syria, but this actually is something that is very 
much worth watching, the splits between Al Qaeda and ISIS 
because if there is going to be fragmentation within Al Qaeda, 
and a reduction in the monopoly it holds over jihadism, I think 
this is what is going to cause it. However, rather than Al 
Qaeda fracturing, I think that there is a chance that we will 
see ISIS fracturing. You can already see some dissent within 
its ranks, and this very much bears watching who is more 
weakened by the split between the two.
    Mr. Franks. Thank you, Mr. Chairman. Thank you, gentlemen.
    Mr. Thornberry. Thank you. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. Gentlemen, thank 
you for being here today. I want to return to the discussion on 
more recent Al Qaeda-affiliated groups. You know, we have had a 
little bit of discussion on how they have historically focused 
more on local grievances as opposed to a global jihad, but then 
we also had a discussion on how Al Qaeda in Iraq, or Jabhat al-
Nusrah in Syria are relying on foreign fighters.
    Looking to specifically Southeast Asia, what does this, how 
does this dynamic work out with these foreign fighters going 
and participating in these two conflicts, and then potentially 
returning home to Jamal Islamia, Abu Sayyaf or these groups, 
you look at what is happening in Thailand with their election 
ongoing, yet they have an ongoing conflict in the southern part 
of Thailand with their Islamic provinces.
    So maybe I will just start with Dr. Swift and move my way 
down. Can you sort of comment on that dynamic of the foreign 
fighters coming back to the individual groups around the 
country--around the world.
    Dr. Swift. Certainly, Representative Duckworth, thank you 
for the question. Foreign fighter flows, there is some 
alliteration for us, are a very complicated phenomenon. If we 
were to speak at the level of generalities, the trend over the 
last 5 to 7 years has been for ethnic Arabs to leave the 
cultural, geographic, linguistic periphery of the Muslim world 
and retrench back into Arab majority areas. We see that with 
the dynamics my colleagues have just described in Syria. I saw 
it very acutely when I was in southern Yemen, and there are 
good reasons for that. One, they speak the language; two, they 
know the local culture; three, they are on home turf, and it is 
possible for them to develop relationships that are based on 
mutual dependency rather than temporary exploitation.
    What we are seeing in places like southern Thailand, what 
we have seen in Mindanao with Abu Sayyaf and the MILF [Moro 
Islamic Liberation Front], what we have seen in Indonesia is a 
lot of ideological colonization and infiltration that occurred 
during the earlier phase of the war on terror, and what has 
happened is as some of those groups within those particular 
societies have become more marginalized and more radicalized 
over time, we have seen them come up the food chain, come up 
the tiers from being sort of an autonomous local rebel group to 
becoming an ideologically aligned radical group to perhaps even 
becoming an Al Qaeda affiliate, but we don't see them rising to 
the level yet of a transnational syndicate or to the level of, 
say, a full-on Al Qaeda franchise.
    So in the ideological sphere we are seeing a lot of 
resonance in terms of the emulation of tactics, rhetoric, and 
message, we see a lot of transfer of knowledge there, but in 
terms of actual alliance formation, in terms of common long-
term political interests, we actually see a divergence, and 
that is part of the reason why the U.S. Army and the Philippine 
Army have had so much success in places like Mindanao where 
they have been able to drive a wedge between Abu Sayyaf, on the 
one hand, which was more globalized in terms of its objectives, 
and the MILF, which was a local organization with parochial 
interests that temporarily adopted a global ideology to further 
those interests.
    So, again, this reinforces my earlier point about the need 
for criteria that are based on interests, ideology, and the 
structure of the operational links between the group, and if we 
don't break things down in that way, everything, the whole map 
starts to look red, and that is not an effective way to manage 
a strategy, much less manage military appropriations for the 
forthcoming year or the forthcoming 10 years.
    Ms. Duckworth. Is there potential there for these foreign 
fighters, upon returning home to, say, Malaysia or southern 
Thailand to have made connections to access resources 
monetarily or otherwise? And I see Dr. Jones nodding and also 
Mr. Gartenstein-Ross, I have just a few minutes left, a minute 
left. Very quickly. Yes?
    Dr. Jones. Briefly, we have seen fighters that have moved 
to theaters to engage in combat in jihad in Syria, Libya, Iraq 
the last several years do make connections. It builds in 
capabilities if they want to come back and continue operation, 
but it also can build financial links to donors in multiple 
locations, including the Persian Gulf.
    Mr. Gartenstein-Ross. I agree with my colleagues. One final 
quick thing to add with respect to the foreign fighter flow, 
last year I was living in the Netherlands at a time when they 
first discovered that there were over a hundred young Dutch 
Muslims who had gone over to fight in Syria, and that problem 
has only increased in western Europe since then. The most 
recent report states that about 1,800 western European Muslims 
have gone over.
    So looking at theaters, in addition to Southeast Asia, I 
think that my two biggest concerns are western Europe and the 
return of foreign fighters there and also Tunisia, which has 
had a large amount for such a small country, and, look, not all 
foreign fighters, even when radicalized, come back and carry 
out attacks, but people who have been at the frontline can have 
trouble reintegrating even into a militant milieu in those 
areas, and this could create a problem for stability in I think 
both western Europe, but more so in Tunisia.
    Ms. Duckworth. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Thank you. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman. Thank you all for being 
here and for your insights. Note, we have touched a little bit 
on this kind of excommunication of ISIS from core Al Qaeda. How 
do you view the implications of that? Are there really any--are 
there any real world implications globally, regionally, and 
then locally of this division between ISIS and core Al Qaeda?
    Dr. Jones. That is a very, very good question. I would, 
just in the interest of time, focus on two. One of them is 
within Syria itself. We have already seen some limited fighting 
between ISIS and Jabhat al-Nusrah and other opposition 
fighters. I think this has the potential to increase the 
tension between ISIS and other opposition groups, including the 
Al Qaeda affiliate.
    The second issue is we have seen in the past this 
organization called Al Qaeda in Iraq broaden its scope of 
targets to include Jordan, Amman, if you count the Zarqawi era. 
I would say this is worth monitoring whether the break changes 
the scope of targeting of this organization to include other 
countries in the region, Jordan, Lebanon, Turkey, and others. 
It is not clear at this point, but that is definitely worth 
watching. The group has gone in that direction in the past.
    Dr. Heck. Anyone else with a view?
    Mr. Gartenstein-Ross. Yes, sir. This is an excellent 
question. I agree with Dr. Jones that there is a potential for 
increased jihadist infighting within Syria. You have already 
seen calls from prominent clerics that fighters should defect 
from ISIS to other factions that are more aligned with Al Qaeda 
like Jabhat al-Nusrah. For example, Abdallah al Muhaysini has 
made that call, which is a fairly significant call. I would 
look for also, secondly, funding networks, does funding shift? 
This is something that can have an effect within Syria, within 
Iraq, and also for the global Al Qaeda network. I will get to 
what I think rides on the second, but the third thing I would 
look to is clerical defections.
    You have had clerics who have thrown in with Jabhat al-
Nusrah, some clerics who have thrown in with ISIS, and we can 
see certain clerics who have endorsed ISIS now starting to 
modify their tone and turn towards Jabhat al-Nusrah. Who people 
align with will make a difference in terms of the future shape 
of jihadism. This is where I think it actually makes an 
enormous difference, less so in Syria than with respect to the 
global network. As I said earlier, you might see a 
fragmentation within Al Qaeda if ISIS is able to succeed 
despite the fact that it was expelled from Al Qaeda because it 
could embolden other affiliates similar to what ISIS did to 
basically flout commands if ISIS is able to succeed.
    If, on the other hand, ISIS doesn't succeed, if it gets 
fragmented and upended by the actions that are now being taken 
against it, it is going to serve as a stark warning to 
affiliates, and it will increase further the kind of control 
that Al Qaeda's core leadership can exert because ISIS will be 
an example of what happens. So because of that, it is kind of 
hard to know what to root for, at least for me, but I think 
that it has tremendous implications, and we really are in 
uncharted territory right now.
    Dr. Heck. Mr. Braniff, do you have a comment?
    Mr. Braniff. Just very briefly. In social movement theory, 
there is something called the radical fringe effect, which 
means that if an organization that is more radical than you 
pops up to your right or to your left, it makes you look more 
mainstream. ISIS was kicked out of the Al Qaeda club because it 
was too violent with respect to violence against other Sunnis. 
This makes Al Qaeda look less extreme to potential funders, 
potential recruits. So resource mobilization, I think from the 
Muslim world, may increase to groups like Al Qaeda or within 
the Al Qaeda camp. I see it as a potential problem.
    Dr. Heck. Dr. Swift.
    Dr. Swift. Dr. Heck, I just want to underscore a strategic 
distinction that pops up as a result of ISIS's excommunication 
as well. In Al Qaeda over the last 4, 5 or 6 years, there has 
been a big debate over the best way forward in terms of 
strategy, and the best way to describe that debate is to 
compare the Zarqawi model, the model that was used in Iraq of 
intimidation, of control, of violence for the sake of violence 
versus the al-Wahishi model being used in southern Yemen today, 
which is about a gradual building out of the base by forming 
networks of mutual dependency with the indigenous tribal 
structures.
    ISIS has no place in an Al Qaeda that is moving towards the 
Wahishi model, and I think it is important to note that 
Wahishi's nomination and acceptance as the number two person in 
Al Qaeda shows that Al Qaeda is making a--has made a 
generational change in addition to making a geographical 
change, it has grown up a little bit more. It is interested in 
sustaining itself into the future and fighting a long war, not 
in jihad for its own sake, not in jihad for the sake of the 
glorification of the individual fighter, and I think that is 
part of the distinction that is being drawn here. That tension 
between the Zarqawi model and the Wahishi model is going to be 
the big debate inside Al Qaeda in the next 5 years.
    Dr. Heck. Thank you all very much. Yield back, Mr. Chair.
    Mr. Thornberry. Thank you. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. I--We have long 
talked about the whole government approach. Frankly, I am kind 
of surprised that we don't already, you know, distinguish I 
guess between the different goals on that level. I would think 
that is fairly basic. But one of the things that I think is 
more complicated than that is something that happens, it seems 
to happen and sucks the U.S. in every time, and that is, you 
know, you go in to do one job and then all of a sudden you 
start doing 15 jobs, and there is mission creep. And so how 
would you suggest that we focus solely on the mission at hand 
and what do you do about the situation where you have all of 
this mission creep so that it ends up taking a toll and, 
frankly, at the end of the day you don't really get where you 
wanted to go? All of you, I guess, or whoever.
    Dr. Swift. Representative, I may make a stab at that 
question. Part of the problem comes back to the broader issue 
of having no strategy and not having criteria that allow us to 
draw distinctions between our adversaries. Because we haven't 
had a strategy based on categories and priorities of threat, we 
have, instead, relied on doctrine, whether it is 
counterterrorism doctrine or counterinsurgency doctrine, and 
doctrine is very, very important. It explains how you use your 
force and your resources in a given theater to achieve the 
objectives in that theater, but it doesn't answer the broader 
questions of strategy and policy as to whether that theater is 
worth the investment and how much of an investment you are 
willing to make in the theater, so if we want to be able to 
understand how to limit mission creep, if we want to be able to 
identify the scope of our engagement in some of these theaters 
around the world or the way that we assist allies and friends 
in some of these theaters around the world, we have got to have 
a very clear and very precise understanding of who our 
adversary is, how they interact with other groups, and how our 
interests are implicated by the same.
    Mr. Gallego. Anybody else?
    Mr. Gartenstein-Ross. I took a stab at this a bit in my 
opening statement when I talked about second order consequences 
with our U.S. military commitments. I think even if we have a 
very clear understanding of who our enemy is as, for example, 
we did in Somalia when committing to supporting Ethiopian 
military action in late 2006, sometimes mission creep occurs 
anyway. Part of the problem is, number one, when ahead of time 
it is not clear exactly what our goal is. Is it just to 
displace an enemy? Is it to try to stabilize a state? What if 
the enemy is then going to come back unless you stabilize the 
state?
    And as you start to ask those questions after making that 
initial commitment, that can cause a mission naturally to 
creep. Now one way we have dealt with that, I think, is by 
moving towards multilateral efforts. For example, in Somalia, 
even though I think one could accurately say that there has 
been U.S. mission creep, the U.S. has kept its mission rather 
limited. It is in a very supporting role as opposed to being at 
the forefront, while both AMISOM, the African Union Mission in 
Somalia, and also other local countries have taken the lead on 
the ground.
    Likewise in Mali, I think that is another area where the 
U.S. made a commitment, but overall it was allied forces as 
opposed to the United States that was in the forefront. I think 
that defining the enemy, setting goals are good criteria, but 
that is not going to solve mission creep in and of itself, and 
I think that when we make U.S. commitments, we always have to 
factor in that mission creep is going to be likely at the very 
outset, and to that extent, especially when something is very 
marginal to our strategic interests, we should think very 
carefully about whether we should make that commitment in 
resources and potentially in lives.
    Dr. Jones. I think the danger of mission creep is an 
important one to consider. I mean, I served for almost a decade 
in Afghanistan and a few other theaters in U.S. special 
operations, so saw mission creep up close. I think the 
mentality here has got to shift, and I think it has begun a 
little bit to one where we don't have to do it ourselves. We--
and this is something several of us have said on this panel. We 
have got to work much better than we do with partnering nations 
in the countries we are operating with, and then our allies.
    So the French example--so mission creep, we could have gone 
down a mission creep avenue in Mali. We did not. The French 
felt particularly threatened, this is their colonial era. They 
actually went in, the U.S. provided limited intelligence and a 
few other things, the French provided the vast majority of 
combat power with the Malian government. That was an example, I 
think, of the U.S. interests were minimal. It was a Salafi 
jihadist group or a series of them operating. The threats 
weren't that serious, and so in that case it was well within 
reason to support local Malian and local French allies. The 
problem--and this is where this is going to get a little 
challenging--is what do we do in countries where there is a 
very acute threat to American security, national security, 
active plotting against the U.S. homeland and very little 
government capacity on the ground? That is the problem we face 
in Afghanistan. I still think that will be a challenge in 
countries like that.
    Mr. Gallego. Thank you, Mr. Chairman.
    Dr. Heck [presiding]. Ms. Walorski.
    Mrs. Hartzler. Thank you, Mr. Chairman, thank you, 
gentlemen, for your insights today. Mr. Braniff, you talked 
about the attrition strategy, and I was wondering if you could 
expound on that a little bit, what that strategy entails.
    Mr. Braniff. Representative Hartzler, thank you for the 
question. Al Qaeda diagnosed the failures of local and regional 
jihadist groups in the 1970s, 1980s, and even into the 1990s. 
These local, more parochial movements tried to overthrow their 
government or reclaim land that they had lost that was occupied 
by an outside power, and they failed time after time, and one 
of the reasons that Al Qaeda came down or Al Qaeda's diagnosis 
of this problem was that it was because the far enemy, the 
United States, was supporting the near enemy, whether it was 
the occupying power, Israel or the Mubarak regime, the Saleh 
regime in Yemen, with $1.3, $1.4 billion of aid a year, and of 
course these local and regional movements would fail time after 
time given that support from the far enemy.
    So Al Qaeda reoriented its targeting, or tried to help 
reorient the targeting and tactical preferences of local, 
regional groups, including its own groups to target the U.S. 
and the far enemy. The idea would be that if they could attrit 
our political, military, and economic will to engage in the 
Muslim world, we would sever ties ourselves, the American 
people would demand that we walk away from Syria, from Iraq, 
from Afghanistan and Pakistan, et cetera, and once the American 
people demand that we walk away and we don't pour money into 
those regimes, then the local and regional regimes can be 
successful, and one emirate at a time, you can start to reclaim 
some of that land, ultimately wedding those emirates together 
to reestablish the caliphate.
    Mrs. Hartzler. Very good. What would you consider the 
number one threat that Al Qaeda poses to us today?
    Mr. Braniff. The threat that they will attrit our political 
will to remain engaged in the Muslim world.
    Mrs. Hartzler. Would you agree?
    Mr. Gartenstein-Ross. I think the number one threat they 
pose is also attrition-based, but I think it is actually 
economic. When you look at the amount of resources that we have 
to expend, and I wrote a book in 2011, I should state, called 
``Bin Laden's Legacy,'' which looks in great detail at Al 
Qaeda's economic strategy. I believe bin Laden saw the economy 
as the U.S.'s center of gravity, that if you can create 
significant attrition to the U.S. economy, then that can 
achieve the goals that Mr. Braniff outlined, and if you look 
at--he gave an interview actually in October 2011, just after 
the 9/11 attacks, when bombs were falling in Afghanistan to an 
Al Jazeera reporter, and during that interview, he talked about 
what he accomplished with the 9/11 attacks. The very first 
thing he pointed to was their economic impact, and he went on 
at length talking about lost productivity. He sounded very much 
like an economist.
    And if you look now at our commitments overseas, both 
direct military outlays and also assistance that we are 
providing, if you look at security measures, Al Qaeda and 
allied forces have very much been trying to drive up our costs.
    A good example of this is a plot in October of 2010 in 
which Al Qaeda in the Arabian Peninsula placed parcel bombs 
aboard two planes, a UPS [United Parcel Service] plane and a 
FedEx [Federal Express] plane, and it didn't kill anybody. The 
parcel bombs were actually deactivated, but despite that, they 
released a commemorative issue of the English-language magazine 
Inspire all about the plot. The reason why was because in their 
view, it would drive up our costs. Anwar al-Awlaki, the late 
AQAP [Al Qaeda in the Arabian Peninsula] leader, not leader of 
the group, but he was a leader within the organization, had an 
essay in which he said it leaves you with two options. Either 
you don't do anything and we try again, or else you spend 
billions and billions of dollars on protecting global freight, 
which is, you know, at the center of basically global commerce, 
so that is what they are targeting, and I think that is the 
biggest threat.
    Mrs. Hartzler. What policy tools do you think we should be 
considering right now to rein in and to mitigate any threats 
from Al Qaeda?
    Mr. Gartenstein-Ross. I think the major thing we need to do 
to address that threat is ensure efficiency in our 
counterterrorism efforts. If you look at our early 
counterterrorism efforts, I think TSA [Transportation Security 
Administration] is emblematic of the kind of inefficiency we 
had at that time, where you stocked it with lots and lots of 
personnel. Initially there was no effort to allocate risks 
among different passengers.
    Now TSA has moved in a different direction. It is trying to 
even assess relative threats before people get to the gate, and 
in that way, provide less scrutiny to some people, more to 
others. I think moving in an efficient direction is something 
we need to explicitly do in our counterterrorism efforts. It is 
not always an easy process, it is sometimes controversial, but 
I believe it is extraordinarily important.
    Mrs. Hartzler. Very good. We have 30 seconds. Does anybody 
else want to add anything? Dr. Jones.
    Dr. Jones. Yeah, let me just make two comments. One is I 
think one set of policy tools we should not go down, and we did 
make this mistake over the last 10 years with large numbers of 
conventional American forces overseas to deal with this. I 
think there is a role for clandestine forces, I think large 
numbers of conventional forces has generally been problematic.
    The second issue is I think we still have not gotten our 
hands on how best to consolidate and make efficient a counter-
radicalization and ideological strategy overseas. We did that 
well in the Cold War.
    Mrs. Hartzler. Thank you very much.
    Dr. Heck. And now Ms. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. Thank you, 
gentlemen. A few of you alluded to the issue of detainee 
releases in your opening remarks. My question is have prison 
breaks and detainee releases provided additional manpower to 
these groups, specifically AQAP? Whoever, it doesn't matter.
    Mr. Gartenstein-Ross. Representative, that is a great 
question. The answer is absolutely. You know, AQAP actually has 
its origins in a prison break which gave rise to the new 
organization, and one of the very significant developments last 
year is, in July you saw a series of prison breaks. The most 
significant was in Iraq at the notorious Abu Ghraib prison, 
which is now being used to house high value terrorists. Over 
500 people were broken out of Abu Ghraib, including--we don't 
have a full accounting of it yet, but it may have included, for 
example, individuals who were involved in the chemical weapons 
plot that was broken up in Iraq. Likewise, you had a prison 
break in Libya and also one in Pakistan, and the amalgamation 
of these is going to have an impact on the capabilities of this 
movement.
    You can also, one other thing I would add, as I alluded to 
in my opening statement, not--there were prison breaks and also 
prisoner releases as part of the early Arab Spring, and that 
also we can see the effect in terms of reenergizing and 
creating new movements in places like Tunisia, in Libya, in 
Egypt where former prisoners play an enormous role in the 
militant organizations that now dominate that landscape.
    Mrs. Walorski. Dr. Jones.
    Dr. Jones. Yeah, I just want to highlight one area where we 
should be somewhat concerned. There is now a growing tension 
between the U.S. and the Afghan governments over the release of 
prisoners in Afghanistan.
    Mrs. Walorski. Right.
    Dr. Jones. I think this is something to watch, not just for 
the Al Qaeda individuals, but for those that have served for 
insurgent groups, particularly the Taliban in Afghanistan. So, 
yes, several of the witnesses have been correct, we have got 
individuals that have either escaped from or been released in 
Egypt, in Tunisia, in Yemen, in Iran actually. I think we have 
got a potential problem in Afghanistan as well with the 
downsizing and the release of prisoners.
    Mrs. Walorski. Let me just ask you this, Dr. Jones, in 
relation to that: So how easy would it be for a militant who 
escapes or is released from prison in Yemen to join up with a 
local AQAP given the activity level there to begin with?
    Dr. Jones. If they retain connections relatively easily, 
when I was in Yemen recently, I would say the networks are 
fairly easy. If we go back to 2008 and 2009, Umar Farouk 
Abdulmutallab was able to find Anwar al-Awlaki and Al Qaeda in 
the Arabian Peninsula, and he wasn't even from Al Qaeda. He had 
been educated in both the Persian Gulf, and before that, in the 
U.K. [United Kingdom]. If he can do it, somebody with those 
network ties definitely can.
    Mrs. Walorski. Dr. Swift.
    Dr. Swift. I was just going to say that when I was in 
Yemen, I found connections to Al Qaeda within 2 days of being 
on the ground.
    Mrs. Walorski. Wow.
    Dr. Swift. And turned down those interviews because it they 
would have put the people I was with at risk. So it is very 
easy. I also want to emphasize, though, that when we look at 
the manpower issues and we look at, you know, the inspiration 
and all the rest, yet there is a great concern about this 
caldron of radicalization that people are in in detention and 
then sending them back, but if you want to look at what is 
actually driving the increase in manpower in places like Yemen, 
it is not detainees, it is not drones, those are our domestic 
political debates. It is a $60-a-month economy and an Al Qaeda 
organization that shows up and pays between $200 and $400 a 
month, that is a game changer for young men looking for their 
way in the world with no education, it is a game changer for 
people trying to feed a family, so you have to look at those 
local economic dynamics and not just our own debates here in 
Washington.
    Mrs. Walorski. And I appreciate that. And when we talk 
about solutions, and we talk about, you know, what do we do as 
policy and we talk about and we partner with all these other 
countries, what relationship, if any, and how difficult will 
that be given now the elevated status of the Muslim Brotherhood 
because of the Arab Spring, and because of the leadership in 
many of these nations around all of these hot spots? What 
dynamic does that throw in when it comes to working with these 
other countries now? Go ahead, Dr. Gartenstein.
    Mr. Gartenstein-Ross. I think it depends from one country 
to another. In Egypt it was a problem. The Muslim Brotherhood 
was not generally people who were clearly being involved in 
international militancy. That helped foster the growth of 
jihadist networks there. If you look to Tunisia, on the other 
hand, and Nahda, which is the party that has been in power, the 
Islamist party which is a part of the global Muslim Brotherhood 
network, has actually gone to war with Ansar al-Sharia in 
Tunisia. At first they were very hesitant to do so, they were 
accused by some secularists of aligning with them, but now they 
are very much committed to fighting them. So I think that is 
going to be something that is very local, and I point to that 
in Tunisia, I think it is somewhat dependent upon the culture 
there. Even the Al-Nahda party, an Islamist party, is a very, 
the founder of the modern Tunisia state, Habib Bourguiba, was a 
francophone, he was very much committed to secular ideals, and 
their background is not really fighting for Islam to dominate 
the state, but actually fighting much more for a place for 
Islam within the state, which gives them a very different 
outlook than Egypt's Muslim Brotherhood. So I think I would say 
it poses a challenge, but locally there is going to be some 
distinctions between different affiliates of the Muslim 
Brotherhood.
    Mrs. Walorski. Okay, thank you. I yield back, Mr. Chairman.
    Dr. Heck. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. I appreciate this 
panel and your insights in regards to what is going on as it 
relates to Al Qaeda and other affiliates. You know, when you 
look back over time, and we have got 3 billion people, it took 
us to 1960 to get 3 billion, we doubled in 40 years, and we 
expect to double again, and so I guess that to me is how do we 
deal with those failed nation states because I would think Al 
Qaeda and others like that fill the void when I think it was 
mentioned when there are no jobs, when the government can't 
provide services, how do we deal with that? I mean, through a 
policy decision that we seem really don't have a direction in 
this government, you know, how do we look forward to how do we, 
how we are going to deal with that particular issue? Any one of 
you I would like to hear.
    Mr. Gartenstein-Ross. I think this is an excellent 
question, and this is, to me, one of the key national security 
issues that we are going to be dealing with over the coming 
decades. When you talk about another doubling in population, 
there are other consequences to that. Water resources will be 
strained, food resources will be strained, our energy resources 
will be strained, you will have a lot of people who don't have 
jobs particularly as technology develops and you can displace 
workers more easily, it is going to create a lot of areas where 
nation states that were once strong begin to fail. You can 
already see an increase in the number of failed states, failing 
states, and territories that are ungoverned. Violent non-state 
actors, not just Al Qaeda, but a full range of violent non-
state actors, drug cartels, smuggling organizations, 
nationalist militant groups, they are going to be a larger part 
of the landscape.
    One thing I would suggest, something that I think we are 
moving towards actually is you will see more countries that 
don't look like the Westphalian state, where instead you have 
multiple centers of power where basically you have a situation 
of cosovereignty where violent non-state actors actually 
control territory in conjunction with the nation state 
controlling other parts. You can see that already in Libya 
where you have powerful militias that keep stability in certain 
areas, you can see this in Somalia where you have not only the 
government and the African Union forces, but you also have 
local organizations like Ahlus Sunnah wal Jamaah, which provide 
stability elsewhere. I think one thing the U.S. is going to 
have a serious discussion about over the course of the next 
decade is how do you deal with violent non-state actors that 
actually can provide stability and work to help the government 
and work against the opposition that we want to defeat, and I 
think that is going to be one of the keys, but it is a very 
complex question that in my view is really going to shape the 
future of national security over the next couple of decades.
    Mr. Nugent. Mr. Swift.
    Dr. Swift. Representative Nugent, we have been fighting on 
the wrong battlefield, sir. The United States is a strong, 
successful national state, nation state. The battlefield we 
really need to be fighting on in a lot of these places where we 
have states, but they are just sort of fragile facsimiles of a 
state is society, and society always has a way of governing 
itself in terms of relationships, in terms of networks, in 
terms of law, usually the law preexists the formation of the 
state, economics preexist the formation of a state.
    Mr. Nugent. When you look at a country like Afghanistan, 
though, that is just the opposite as what occurred; is that 
correct?
    Dr. Swift. Representative Nugent, I have spent a fair 
amount of time sitting jirga in Afghanistan doing local dispute 
resolution, so I respectfully suggest that there was a law, it 
just wasn't a national law, and so one of the things we need to 
be considering when we are moving forward is looking at where 
the centers of power actually are and looking at where the key 
economic and social relationships actually are rather than 
assuming that state structures are going to be the answer.
    In some places they are and must be, and ultimately in many 
places we would like to see something that looks like a western 
Westphalian state, but if our interest is targeted towards 
dealing with the threats as we find them in the field, then we 
have to deal with the field as we find it, even if there is no 
state there.
    Mr. Nugent. I appreciate that comment. Dr. Jones.
    Dr. Jones. Yes, just briefly. If you look at some of the 
progress fighting against al-Shabaab in Somalia, they have been 
pushed out of Kismayo, their key port city, they have been 
pushed out of Mogadishu, the capital. It is a very weak state. 
You look at World Development Bank indicators, among the 
weakest states in the world, and how has that been possible? It 
has actually been possible for a number of reasons, and this is 
a case where the U.S. has not been engaged to anywhere near the 
degree it was in Afghanistan or Iraq. It was the leveraging of 
local tribes, subtribes, militia forces, the help of neighbors 
like Kenya and Uganda, the help of AMISOM forces and the help 
of also of the Somali government, so I would support what Dr. 
Swift just noted and actually would point to Somalia as a 
useful example where we have seen this, one of Al Qaeda's 
affiliates actually weakened along these lines.
    Mr. Nugent. Thank you very much, and I yield back.
    Dr. Heck. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I want to stay on that 
same train of thought if I could. I have several questions, one 
of them getting back specifically to the President's comments 
about Al Qaeda being defeated back in 2012. It seemed to me 
that maybe he took the death of Osama bin Laden to mean that Al 
Qaeda had been defeated, and many of us had very strong 
disagreements with that, that it meant the group would fracture 
and then there would be multiple fronts in which you would have 
to take this on because they didn't have a leader, but we got 
to the question of Libya, and that is where I had gone, and one 
of the questions that has been talked about is what are the 
United States goals when we get involved in a situation and 
what is the framework?
    When Qadhafi was taken out of power, did that create more 
opportunities for Al Qaeda and other terrorist organizations in 
that region of the world, or did it reduce their opportunities 
for growth?
    Dr. Jones. I would just say, empirically, Libya today is a 
hotbed of jihadist activity, camps in multiple parts of the 
country from groups not just in Libya, that is Ansar al-Sharia 
Libya, but Muhammad Jamal has activity, Ansar al-Sharia 
Tunisia, Belmokhtar's organization, Al Qaeda in the Islamic 
Maghreb. The challenge is the overthrow of the Qadhafi 
government was not followed through with an effort to stabilize 
the country, both at the national and the substate level, so 
there has been a major void when you get outside of cities.
    Mr. Scott. Let me follow up with one question, and I would 
like for each of you to answer this one when you get a chance. 
I see it the same way, by the way, Dr. Jones, and one of my key 
questions is what happened to the weapons that Qadhafi had? And 
do you believe that obviously the United States and our allies 
didn't go in and secure those weapons so do we, should we 
believe that Al Qaeda and the other militants are the ones that 
ended up with the weapons that Qadhafi had after we, after the 
United States took him out.
    And, by the way, the President made that decision, it did 
not come before Congress. I do not believe that he would have 
gotten permission from Congress. That is just speaking from one 
person. Because I think the questions that we are asking today 
would have been asked before that action was taken, what 
happens after he is gone?
    Dr. Jones. I haven't done a careful itinerary of where all 
the weapons in Libya have gone, but I do know some of the 
weapons caches were raided by jihadist groups. They ended up--
for example, the French reported fighting against groups 
including Harakat Ansar al-Dine in Mali that were using weapons 
that they verified were secured from Libyan weapons caches, so 
we do know that they have gone to other theaters, and some have 
got into the hand of jihadist groups. I just can't give you a 
percentage of how many got into the hands of these kinds of 
organizations. Others obviously got into the hands of some of 
the Libyan militia forces that aren't necessarily jihadist 
groups that have more parochial views.
    Mr. Braniff. Representative Scott, I would just add that it 
might be slightly even more complicated than just Qadhafi's 
weapons. When these sorts of fronts are opened up, resources 
often pour in from other places as well, and jihadist 
organizations have a long history, especially in North Africa, 
of glomming on to existing jihadist fronts. GIA [Armed Islamic 
Group] did it in Chechnya, GSPC [Salafist Group for Preaching 
and Combat] in Bosnia, and then in Iraq where they latched on 
to other jihadist fronts, siphoned off resources, moving into 
those fronts for their own purposes, and we should have every 
expectation that that happened as well in Libya, although that 
would have happened as long as there was a fight against 
Qadhafi, not necessarily because of U.S. action.
    Mr. Gartenstein-Ross. Representative Scott, I agree with my 
colleagues, and I would just add that this is a good example of 
where we have to understand the world as it will be as opposed 
to what we would like. There was a lot of early optimism of 
what revolutions meant, and I think that we should have 
understood the danger when we didn't fully appreciate the 
strategic situation in the region of taking action that was 
going to very much speed it up. When you look at the second 
order consequences of Libya, it extends not just to regional 
jihadism, it may extend also to other areas such as Syria. I 
believe something like that really deserves further 
investigation so that we can understand what the consequences 
actually were, sir.
    Dr. Swift. Representative, I think my colleagues have 
covered the waterfront here. I would just make two notes. The 
first is that a lot of these pathways were already open, and 
they opened during the U.S. intervention in Iraq as groups were 
moving across North Africa, including through Libya, into the 
theater in Iraq. So some of these things are preexisting and 
are not related directly to Qadhafi or to our intervention in 
Libya.
    The second thing my esteemed colleague Daveed has raised a 
very good point about revolutions generally. Most revolutions 
fail to consolidate political mobilization and social 
mobilization. Social mobilization is you get out and fight, 
political mobilization is you pull together institutions to 
replace the institutions you have torn down. To the extent that 
we are going to be involved in any place where a revolution is 
taking place, we have got to be very careful that the folks 
that we back have an institutional framework rather than an 
emphasis, as we see with a lot of Al Qaeda affiliates, on war 
for its own----
    Mr. Scott. I am out of time. I think these are questions 
that all should have been answered prior to the President 
taking action. Thank you.
    Dr. Heck. Mr. Jones.
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much, and this has been a great panel. Thank you all for being 
here today to share your knowledge with those of us in the 
Congress about this very, very important issue. I want to--my 
question will deal with the bilateral strategic agreement that 
this Nation is trying to sign with Afghanistan and their leader 
at the present time, Karzai. I know there is supposed to be an 
election forthcoming in Afghanistan. The people in my district, 
the 3rd District of North Carolina, the home of Camp Lejeune 
Marine base, 60,000 retired military, do not understand the 
stupidity of this policy in Afghanistan.
    On the 30th of January in The Washington Post, and I am 
sure you probably read it, after billions in U.S. investment, 
Afghanistan roads are falling apart. I have met with Douglas 
Wissing, who wrote the book ``Funding the Enemy,'' we did a 
press conference with him as a matter of fact. John Sopko has 
testified at the subcommittee level many times about the waste, 
fraud, and abuse. The New York Times on January the 30th, 
``U.S. Aid to Afghanistan Flows On Despite Warnings of 
Misuse.'' With the knowledge that you have to share with us 
here today, the Taliban, it is my understanding that a nation 
like Afghanistan that has fought with foreigners for many, many 
years, including recently before America the Russians, they, 
right or wrong, seem to want to have the country that they 
have, whether we want them to have it based on their culture or 
not.
    My question to you, in behalf of the people that I 
represent, if the President does complete this agreement that 
we have roughly 10 more years of America, which is financially 
broke, and we will soon be debating on the floor of the House 
an increase in the debt ceiling--the last time I voted for a 
debt ceiling was in 1998 or -9, and the debt at that time was 
$5.6 trillion. It is now over $17 trillion. If they raise the 
debt ceiling, it will either be $19 trillion or $20 trillion, 
and we will continue to borrow the money from foreign 
governments to pay Karzai.
    My point is that knowing what you know that I don't know, 
how in the world can our Nation in such dire needs of its own 
try to reach a 10-year agreement to continue to fund their 
needs so they can blow it up? In my opinion, the Taliban do not 
want America's presence. Now, if you get into Al Qaeda and 
these other jihadist groups, I really would like for you to 
speak specifically to the sanity of 10 more years of spending 
money that we do not have with almost no accountability, and as 
John Sopko said, the waste, fraud, and abuse is worse today 
than it was 12 years ago.
    Would you speak to the sanity of my question and the sanity 
of a policy of what we are trying to do in Afghanistan? Thank 
you, and I appreciate if each one could share your opinions.
    Dr. Jones. I think that is a very, very good question. I 
don't see this in terms of black and white. I think the work 
that John Sopko and his organization has done, the light they 
have shined is useful. I would just bring in two points. One is 
I think there has been a fair amount of money that has been 
wasted, American taxpayer money that has been wasted for the 
wrong purposes in Afghanistan. But I would just argue that 
there continue to be threats from some groups to the U.S. 
homeland, we have had two major groups plotting attacks from 
there, Al Qaeda and the Tehrik-e-Taliban Pakistan, U.S. 
citizens in the region including the Haqqanis and Lashkar-e-
taiba, so I don't think what that means is we walk away. What I 
would argue is we have got to be a lot smarter in how we spend 
our money and the size of our force presence there so that we 
can continue to deal with those threats without the waste and 
corruption that we have had over the past several years. I do 
think there are ways to do it.
    Dr. Heck. The gentleman's time has expired. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. I think we have come 
away with a lot of good insight from each of you today, and I 
appreciate that. You know, I have come away with that if you 
look like a terrorist and act like a terrorist, you are a 
terrorist regardless of your affiliation. I don't think there 
is card-carrying members among the terrorist groups 
necessarily. But I think what we always have to do is address, 
you know, what is the threat to the United States, to its 
citizens, and to our interests, and then address what our 
relationship is with the nation that is involved, and then 
their capabilities, and what they are able to do as far as 
prevention, as far as reaction to an action, and then 
subsequent detention, and those are the things I think that we 
need to be focusing on around the world and what those 
relationships are, and it can vary from country to country. 
But, you know, after 9/11, I sat there and thought, you know, 
this is going to take 40 years, we are not just going to change 
this overnight.
    You mentioned a decade. I think it is a generational change 
that we should be addressing, and I don't see us doing that. I 
think we had the opportunity in Iraq, I served in Iraq at Abu 
Ghraib prison, I was there for a year, you know, we made 
headway with the Iraqi people, and we have lost that. We gained 
trust, we have lost that. We had a chance to change a 
generation of thought patterns. Went into a country where, in 
an area of the world where they think that everything that is 
wrong is our fault, and then they got to see a different side 
of us. I don't see us doing anything today that changes the 
next generation in that part of the world, and I would like you 
to speak to that and maybe your thoughts on that.
    And then also I think it has become clear that we need a 
well-defined international justice and detention system. We 
have not done that. We have avoided it. Saying we are going to 
close Guantanamo doesn't cover it. We need to do it, and we can 
do it, and it is a different tier. This is not Timothy McVeigh 
and this is not World War II. We need to address that as a 
nation, and we haven't done it, and I think we should. Turn it 
over to whoever wants to speak on those two issues.
    Mr. Gartenstein-Ross. Sure, Representative Wenstrup, I 
think that the detention point I would like to speak to 
briefly. I think that is a very important point. What we are 
dealing with is a class of actors that don't fit within the 
Geneva Conventions. The Geneva Conventions explicitly 
anticipate state-to-state warfare, and in the case of violent 
non-state actors, you have two specific problems. One is that 
when you anticipate detention until the cessation of 
hostilities, which is what the Geneva Conventions anticipate, 
you don't know when a war is going to end, but when it is 
state-to-state, you are pretty sure it is not going to be 10 
years, 15 years, 40 years, while in the case of violent non-
state actors it may well be.
    The second thing is that in state-to-state conflict, the 
enemy wears a uniform. In this case the enemy does not. The 
U.S. has made some progress working with the International 
Committee on the Red Cross to try to refine its own detention 
policies, but I strongly agree with you, strongly that the need 
for detention policy is not going to go away because in many 
cases, members of the opposing force have committed no crime, 
but they are still members of the opposing force. Therefore, 
the criminal justice system does not properly deal with them. 
If we are going to be in wars, we or our allies need a 
detention policy, and I think this is, as you said, best worked 
out at an international level in order to reduce the kind of 
criticism that what you are doing is unlawful, but the point is 
that a policy is 100 percent needed, sir.
    Dr. Wenstrup. Thank you. Any comments on changing the next 
generation?
    Dr. Jones. Yeah, I have got a few. One is when we have 
committed American money and forces to areas that are still 
dealing with challenges, the challenges we are talking about 
here, I think it is very important that we not abandon those 
places. I think that is a message that if we do abandon, we 
send a very dangerous message. I would also say when we make a 
commitment as a nation, when the U.S. Government makes a 
commitment along these lines, we must adhere to it. I have 
concerns about the redrawing of red lines that have repeatedly 
been moved and what that has done to U.S. standing in various 
parts of the world, and I would just finally argue that the 
groups we are talking about here aren't just Al Qaeda, but the 
groups that pose a threat to the United States are extremist in 
nature, and I think we have got to continue to work both at 
home and abroad to demonstrate and to argue that those 
organizations, those networks, and those individuals are an 
extreme version of Islam, they are an abomination of the 
religion, and they are generally not supported in those 
populations. Until that happens, I think we won't see an end to 
this.
    Mr. Braniff. Just very briefly that Al Qaeda's affiliated 
organizations are giving us a lot of ammunition to use against 
them in the body counts that they are generating year after 
year, and we should be using that.
    Dr. Heck. The gentleman's time has expired. I would like to 
take this opportunity to thank all of the esteemed members of 
our panel for your testimony this afternoon. I think certainly 
the takeaway is that global jihadism, regardless of the name of 
the actor or the group, will remain both a short-term and a 
long-term threat both to our Nation and our national interests, 
and that this administration and this Congress should be 
mindful of the growing decentralization and proliferation as we 
evaluate our policies. Again, thank you very much for being 
here this morning. The meeting is adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                            February 4, 2014

=======================================================================





======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 4, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 4, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 4, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Since the inception of Al Qaeda in 1988, when do you 
believe they posed the most significant threat to the United States; 
was the September 11, 2001, attack the peak of Al Qaeda's ability to 
impose terror on Americans or was this, simply, vulnerability in the 
U.S. defense posture?
    Dr. Swift. [The information was not available at the time of 
printing.]
    Mr. Turner. Do you believe Al Qaeda has the ability today to 
conduct a large-scale attack against the continental U.S. or any of its 
forward locations on foreign soil?
    Dr. Swift. [The information was not available at the time of 
printing.]
    Mr. Turner. What do you see the strength of Al Qaeda being in 5 
years and how can we prevent them from emerging as a dominant force 
among terror networks?
    Dr. Swift. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
